<html>
<title> - FATIGUE IN THE RAIL INDUSTRY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                      FATIGUE IN THE RAIL INDUSTRY

=======================================================================

                                (110-8)

                                HEARINGS

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-779 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
JUANITA MILLENDER-McDONALD,          JERRY MORAN, Kansas
California                           GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
JULIA CARSON, Indiana                JOHN BOOZMAN, Arkansas
TIMOTHY H. BISHOP, New York          SHELLEY MOORE CAPITO, West 
MICHAEL H. MICHAUD, Maine            Virginia
BRIAN HIGGINS, New York              JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
JOHN T. SALAZAR, Colorado            CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      TED POE, Texas
DANIEL LIPINSKI, Illinois            DAVID G. REICHERT, Washington
DORIS O. MATSUI, California          CONNIE MACK, Florida
NICK LAMPSON, Texas                  JOHN R. `RANDY' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                CHARLES W. BOUSTANY, Jr., 
JASON ALTMIRE, Pennsylvania          Louisiana
TIMOTHY J. WALZ, Minnesota           JEAN SCHMIDT, Ohio
HEATH SHULER, North Carolina         CANDICE S. MILLER, Michigan
MICHAEL A. ACURI, New York           THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
CHRISTOPHER P. CARNEY, Pennsylvania  VERN BUCHANAN, Florida
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California

                                  (ii)



     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
JULIA CARSON, Indiana                WAYNE T. GILCHREST, Maryland
GRACE F. NAPOLITANO, California      STEVEN C. LaTOURETTE, Ohio
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               GARY G. MILLER, California
BRUCE L. BRALEY, Iowa                HENRY E. BROWN, Jr., South 
TIMOTHY J. WALZ, Minnesota           Carolina
NICK J. RAHALL II, West Virginia     TIMOTHY V. JOHNSON, Illinois
PETER A. DeFAZIO, Oregon             TODD RUSSELL PLATTS, Pennsylvania
JERRY F. COSTELLO, Illinois          SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JIM GERLACH, Pennsylvania
ELIJAH E. CUMMINGS, Maryland         MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            LYNN A. WESTMORELND, Georgia
DANIEL LIPINSKI, Illinois            JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                 (iii)

                                CONTENTS

                                                                   Page
Summary of Subject Matter........................................   vii

                               TESTIMONY

Boardman, Hon. Joseph H., Administrator, Federal Railroad 
  Administration, accompanied by Grady C. Cothen, Jr., Deputy 
  Associate Administrator for Safety Standards and Program 
  Development, Federal Railroad Administration;..................     3
 Brunkenhoefer, James, National Legislative Director, United 
  Transportation Union...........................................    26
 Dealy, David, Vice President, Transportation, BNSF Railway......    26
 Hamberger, Edward R., President and Chief Executive Officer, 
  Association of American Railroads..............................    26
 Hursh, Steven R., President, Institutes for Behavior Resources..    11
 Parker, Leonard, Legislative Director, Brotherhood of Railroad 
  Signalmen......................................................    26
 Pontolillo, Thomas A., Director of Regulatory Affairs, 
  Brotherhood of Locomotive Engineers and Trainmen...............    26
 Rosenker, Hon. Mark V., Chairman, National Transportation Safety 
  Board..........................................................     3
 Sherry, Patrick, Ph.D., Professor, University of Denver.........    11

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................   196
Costello, Hon. Jerry F., of Illinois.............................   230
Mica, Hon. John L., of Florida...................................   272
Oberstar, Hon. James L., of Minnesota............................   275

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Boardman, Hon. Joseph H..........................................    48
 Brunkenhoefer, James............................................   201
 Dealy, David....................................................   232
 Hamberger, Edward R.............................................   243
 Hursh, Steven R.................................................   261
 Parker, Leonard.................................................   278
 Pontolillo, Thomas A............................................   287
Rosenker, Mark V.................................................   302
Sherry, Patrick..................................................   311

                       SUBMISSIONS FOR THE RECORD

Boardman, Hon. Joseph H., Administrator, Federal Railroad 
  Administration:

  Responses to questions.........................................    57
  Responses to questions and attachments concerning fatigue......    65
  Report, Current Status of Fatigue Management in the Railroad 
    Industry, Patrick Sherry, Ph.D, Associate Professor, 
    Director, National Center for Intermodal Transportation, 
    Intermodal Transportation Institute, University of Denver, 
    July 25, 2006................................................    69
  Fax from BNSF Railway Company, description of computer-based 
    training courses offered by the National Academy of Railroad 
    Sciences, Overland Park, Kansas..............................   176
  Canadian National Railway, summary of fatigue training program 
    and three CN brochures.......................................   180
  CSX Transportation, Inc., email................................   187
  Norfolk Southern Corp., email and attachment listing Norfolk 
    Southern initiatives on work/rest education and training.....   188
  Union Pacific Railroad company, email and attachment listing 
    Union Pacific videos and brochures on various subjects, 
    including alertness..........................................   190
 Hamberger, Edward R., President and Chief Executive Officer, 
  Association of American Railroads, response on Norfolk 
  Southern's use of camp cars....................................    46
 Rosenker, Hon. Mark V., Chairman, National Transportation Safety 
  Board, responses to questions..................................   307
[GRAPHIC] [TIFF OMITTED] 34779.001

[GRAPHIC] [TIFF OMITTED] 34779.002

[GRAPHIC] [TIFF OMITTED] 34779.003

[GRAPHIC] [TIFF OMITTED] 34779.004

[GRAPHIC] [TIFF OMITTED] 34779.005

[GRAPHIC] [TIFF OMITTED] 34779.006

[GRAPHIC] [TIFF OMITTED] 34779.007



                      FATIGUE IN THE RAIL INDUSTRY

                              ----------                              


                       Tuesday, February 13, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
        Subcommittee on Railroads, Pipelines and Hazardous 
                                                 Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2167, Rayburn House Office Building, the Honorable Corrine 
Brown [chairwoman of the subcommittee] presiding.
    Ms. Brown. Will the Subcommittee come to order?
    The Subcommittee is meeting today to hear testimony on 
fatigue in the rail industry.
    Let me just say from the onset because the Federal 
Government is shutting down at 2:00, we are going to try to 
conduct this hearing within an hour. There is going to be 
restraint on my part, the Ranking Member's part and the 
members, and also we are going to hold to the five minute rule.
    According to the FRA, human factors are responsible for 
nearly 40 percent of all train accidents, and a new study 
confirms that fatigue plays a role in approximately one out of 
four of these accidents. Research analysis of the 30 day work 
schedule of locomotive crews represent 1.40 train accidents and 
not surprisingly found a strong correlation between the crew 
levels of alertness and the likelihood that they would be 
involved in an accident. The NTSB investigators have reached 
similar conclusions.
    The Hours of Service Law which was originally enacted in 
1907, amended in 1969, is outdated. It deals only with acute 
fatigue, not cumulative fatigue. Since the rail industry is 
remarkably different today compared to 40 or 100 years, there 
are some significant shortcomings in the law.
    For example, the law does not properly address limbo time 
which is a time when crew workers' assignment is finished and 
they are waiting for transportation back to their homes. During 
limbo time, crew members are required to stay awake, alert and 
able to respond to any situation which means the crew can be on 
the job for as long as 15 to 20 hours at a time.
    In the case of the Texas accident which the NTSB will 
mention this afternoon, the engineer worked longer than 14 
hours on 11 days prior to the accident. On one of those days, 
he worked a total of 22 hours, 12 hours and 10 hours in limbo 
time. The Texas accident raised some longstanding concerns with 
the Hours of Service Law and railroad operation procedures.
    Although the NTSB has repeatedly asked the FRA to make 
improvements to Hours of Service and address fatigue, the FRA 
singly does not have the regulatory authority to do so. So it 
is up to Congress to take action. I understand the railroads 
are busier than ever and need all of the manpower they can get, 
and I understand that the railroad workers are happy to work 
long and hard just to make ends meet, but these hearings are 
about safety, and we have an opportunity to stop a large 
percentage of accidents if we use sound science to determine a 
safe and productive work schedule.
    I want to welcome our distinguished panelists today, and I 
am looking forward to working with you in the hearing and to 
hearing your ideas on reducing fatigue in the railroad industry 
and strengthening the overall safety environment.
    Before I recognize Mr. Shuster for his opening remarks, I 
ask unanimous consent to allow 30 days for all members to 
revise and extend their remarks and to permit the submission of 
additional statements and material by members and witnesses, 
without objection.
    Mr. Shuster?
    Mr. Shuster. Thank you, Madam Chairwoman. I want to thank 
you for putting together this hearing today on fatigue in the 
railroad industry.
    As we have heard over the last two weeks from several 
people, fatigue has been identified as a contributing factor in 
several serious accidents. If reducing worker fatigue equals 
reducing accidents, then I am all for it.
    However, when examining this issue, we must also keep in 
mind that our existing rail safety laws have been a remarkable 
success. The Bureau of Labor Statistics reports that the rail 
industry is rated safer than manufacturing, aviation and 
trucking and from the figures I have seen, statistically, 
working on the rails is safer than working in a grocery store. 
According to testimony delivered at our last hearing, there 
have been a 71 percent decline in train accidents since 1978. 
Total rail-related fatalities declined 46 percent while total 
employee deaths have dropped 80 percent.
    Worker fatigue is certainly an important issue, and we need 
to ensure that railroad workers receive adequate rest. When 
addressing these issues, we must also remember that even well 
rested humans sometimes make mistakes. One of the best ways to 
combat human error is through advanced technology. Positive 
train control can stop a train if an engineer mistakenly runs a 
red light, new tank car designs can prevent the accidental 
hazmat releases, and advanced track inspection cars can detect 
track flaws invisible to the human eye. We must continue to 
look forward and explore new technologies to keep our railroads 
safe.
    In closing, Madam Chairwoman, I would like to thank you 
again for holding these hearings on fatigue and thank all of 
the witnesses that are here today to testify before us. I am 
looking forward to a most informative hearing today.
    Thank you and I yield back.
    Ms. Brown. Thank you.
    The other members will have an opportunity to submit their 
opening remarks and questions.
    Now I want to welcome the Honorable Joseph Boardman who is 
the Administrator for the Federal Railroad Administration. Mr. 
Cothen, who is the Deputy Assistant Administrator of Safety 
Standards and Program Development at the FRA, is joining him 
today.

 TESTIMONY OF THE HONORABLE JOSEPH H. BOARDMAN, ADMINISTRATOR, 
   FEDERAL RAILROAD ADMINISTRATION, ACCOMPANIED BY GRADY C. 
    COTHEN, JR., DEPUTY ASSOCIATE ADMINISTRATOR FOR SAFETY 
      STANDARDS AND PROGRAM DEVELOPMENT, FEDERAL RAILROAD 
   ADMINISTRATION; THE HONORABLE MARK V. ROSENKER, CHAIRMAN, 
              NATIONAL TRANSPORTATION SAFETY BOARD

    Mr. Boardman. Thank you, Madam Chairwoman and Mr. Shuster.
    In an effort to get underway quickly, I am very pleased to 
be here today for Secretary Peters to testify regarding the 
issue of fatigue and its relationship to the safety of railroad 
operations.
    In any given year, approximately 35 to 40 percent of train 
accidents, and very likely the majority of railroad employee 
fatalities and personal injuries, involve what the safety 
community refers to as human factors. As I testified before 
this Subcommittee last July, we are here to maximize safety. We 
need to make sure that we have good rules and procedures, 
effective training, system accountability, and positive safety 
culture.
    I also called attention to the need for employees to be fit 
for duty, well rested, free of alcohol and other impairing 
drugs, and free of medical conditions that could compromise 
performance. In the 1980's, the FRA led the way in targeting 
alcohol and drug use, and the Railroad Safety Advisory 
Committee is currently exploring the establishment of medical 
standards for safety-critical railroad employees. This effort 
includes a sharp focus on sleep disorders which can contribute 
to fatigue.
    My written testimony addresses the broad range of fatigue 
initiatives we have underway; but, in the few minutes that I 
have here today, I would like to focus particularly on the 
providing of employees with the opportunity to get needed rest.
    As you stated, we are approaching the 100th anniversary of 
the Hours of Service Act on March 4th of this year, and its 
substance as applied to train crews has not been amended for 
over 37 years. For the last 25 years the National 
Transportation Safety Board has been calling attention to the 
apparent role of fatigue in major train accidents. For much of 
that time, FRA, labor, and management have worked together to 
get a better understanding of this problem and to develop 
effective responses.
    This past November, I had the pleasure of releasing a study 
that reported the largest body of fatigue-related data from the 
railroad industry ever made public. The study documented 
successful validation and calibration of a fatigue model that 
may be used to evaluate the scheduling of railroad operating 
personnel. The underlying data also confirmed what we inferred 
in other studies, that is, that a significant number of the 
most serious accidents involve employees whose performance is 
adversely affected by fatigue.
    Today I am here asking for your support for legislation 
that will permit us to put into action what we have learned. We 
propose to sunset the hours of service laws but retain its 
protections as interim regulations. Then we would convene the 
Railroad Safety Advisory Committee to develop new science-based 
requirements that can help to reduce human factor accidents and 
casualties.
    We will need revised benchmark limits on work hours and 
requirements for rest periods to provide simple guidance for 
fixed schedules where that will suffice, but with the tools now 
available, we will be also able to recognize fatigue management 
approaches that include careful evaluation of a wide variety of 
more flexible work schedules by validated techniques.
    Madam Chairwoman, some will tell you that statutory hours 
of service should live on because, although that Boardman 
fellow can be trusted for now, who knows who will follow him? I 
understand the concern that hard-won gains might be lost, but 
one thing I have learned at the FRA is that we are subject to 
an incredible amount of oversight and public scrutiny, and we 
wouldn't and couldn't go far wrong even if we wanted. We are a 
part of the U.S. Department of Transportation, and FRA as an 
institution can be trusted to take this on just like the FAA or 
the FMCSA, and we have prepared ourselves to do it.
    Others will tell you that the days of excessively long 
hours are over. They will say that a variety of improved 
practices are in place. The situation is under control. In 
fact, we are gratified that many employees are better off from 
the point of view of adequate rest than they were in 2004 and 
2005. But history teaches us that unexpected forces can sweep 
rapidly through this industry and that when the spotlight is 
not on, safety can suffer.
    As I pointed out in my prepared remarks, the solution to 
this problem should not break the bank. Even during the worst 
of times, employees have received adequate opportunity for rest 
most of the time, and most employees take advantage of those 
opportunities. Let us close this remaining gap, and let us 
ensure the solution holds. I believe that is done by giving the 
FRA the ability to apply scientifically-based fatigue 
management through RSAC, advised by RSAC, and with regulation-
based hours of service.
    Madam Chairwoman, thanks for the opportunity to talk about 
the problem of fatigue, which affects all of us in every walk 
of life but which looms largest when life is itself at stake. 
FRA looks forward to working with this Subcommittee as you move 
forward with rail safety reauthorization, and our bill will be 
delivered to Congress tonight.
    Ms. Brown. I ask unanimous consent to permit the gentleman 
from New York, Mr. Kuhl, to sit with the Subcommittee and ask 
questions throughout the course of the hearing. Without 
objection, so ordered.
    I welcome the Honorable Mark Rosenker who is Chairman of 
the National Transportation Safety Board.
    Let me remind the witnesses to try to limit their oral 
statements to five minutes. Your entire statement will appear 
in the record.
    Mr. Rosenker. Thank you, Chairwoman Brown, Ranking Member 
Shuster and distinguished members of the Subcommittee. I have 
submitted my written testimony for the record, and I wish to 
thank you for the opportunity to testify on this important 
safety issue: fatigue in the rail industry.
    I plan to discuss three areas of concern today: first, the 
decades long history of fatigue-caused railroad accidents that 
the Safety Board has investigated; secondly, the equally long 
history of safety recommendations that we have made to address 
the problem; and finally, the frustration we share with the 
Federal Railroad Administration regarding its lack of 
legislative authority to address the root causes of fatigue 
through scientifically-based principles of work load and 
fatigue management.
    Since 1984, fatigue-related train accidents have continued 
until the most recent collision between two freight trains at 
Macdona, Texas in June of 2004. Both crew members failed to 
obtain sufficient restorative rest before reporting for duty 
because of their ineffective use of off duty time and the 
railroad's train crew scheduling practices. Work as a train 
crew member often entails an unpredictable work schedule. That 
unpredictability may have encouraged this crew to delay 
obtaining rest.
    The work schedules of rail crew members permit repetitive 
12 hour duty days that we know lead to cumulative fatigue. When 
the workers commute, limbo time and family responsibilities are 
added to those 12 hour daily schedules. The conditions for 
exceedingly long delays that lead to acute fatigue are quite 
evident. Further, the relatively short mandatory periods of 
time off may not afford the opportunity for fully restorative 
sleep.
    In the past two decades, the Safety Board has issued 33 
recommendations specific to railroad employee fatigue. The FRA 
received eight, and others have gone to rail carriers and 
operating unions. Just as our accident history traces the 
problem of fatigue in railroad accidents, the Safety Board's 
recommendation history defines the actions that we think could 
address the problem including enhanced nighttime supervision, 
crew alerters, actions to reduce the irregularity and 
unpredictability of crew members' work-rest schedules, 
education and counseling to help crew members avoid sleep 
deprivation and finally the establishment of rail carrier 
policies that would allow an employee to report off duty when 
they are impaired by lack of sleep.
    Recommendations to address the issue of operator fatigue 
were placed on the Board's most wanted list in 1990. One 
recommendation in 1999 asked the FRA to establish 
scientifically based Hours of Service regulations that set 
limits on hours of service, provide predictable work and rest 
schedules and consider circadian rhythms in human sleep and 
rest requirements. The FRA acknowledged the seriousness of the 
effects of fatigue on safety, but it stated it did not possess 
the authority to change Federal Hours of Service. The FRA also 
stated that the DOT had attempted to seek Congressional 
authority in 1991 to bring about modernization of Federal Hours 
of Service laws in a bill submitted to Congress. However, 
according to the FRA, the bill was not supported by rail labor 
and rail management, and unfortunately it was not enacted in 
the 102nd Congress. Therefore, our 1999 safety recommendation 
was classified "closed, reconsidered" in recognition of the 
FRA's lack of authority to be responsive to the recommendation.
    However, after more railroad accidents were attributed to 
fatigue including the accident in Macdona, Texas, the Safety 
Board last year recommended that the FRA require railroads to 
use scientifically based principles when assigning work 
schedules and establish requirements that limit train crew 
members' limbo time. The FRA in October, 2006 again responded 
by saying that the FRA lacked rulemaking authority over duty 
hours which the FRA says precludes it from making use of almost 
a century of scientific learning on the issue of sleep-wake 
cycles and fatigue-induced performance failures.
    We believe the FRA needs the authority to regulate crew 
member work schedule practices and work limits and continue to 
support changes that would provide the FRA that authority.
    Madam Chairwoman, that completes my statement, and I will 
be happy to respond to your questions.
    Ms. Brown. Thank you.
    Mr. Boardman, my questions mainly go to you. You are 
working on a bill, and you mentioned a need for legislation to 
address fatigue. Why not leave this up to labor and management 
to negotiate this?
    Mr. Boardman. Yes, Madam Chairwoman, you will have the bill 
this evening.
    Basically, because the public is really not represented in 
labor and management negotiations and at the collective 
bargaining table, yet the public is the one that is at risk 
along the tracks when the workers are not rested and an 
accident occurs. Companies and labor organizations have their 
own agendas to deal with, and to place this additional agenda 
on them at the collective bargaining table, we don't think is 
the right approach.
    Ms. Brown. Can you give us the five main points of the bill 
that you all are going to be bringing forth?
    Mr. Boardman. Certainly, one of them is the hours of 
service regulation, in and of itself. In addressing limbo time, 
for example, we may be asking for a performance-based approach 
that will take into consideration any prior sleep deficit, the 
ability to plan rest, the duration of the covered service 
period, time spent awaiting transportation, time, in 
transportation, of the day with the circadian rhythms, as the 
Chairman talked about, and any other factors that may be 
important.
    In terms of saving you time on this particular Committee, I 
can list each of the elements and get back to you on the major 
parts of the safety bill itself, but it includes grade 
crossings, and it includes some clarifications, several areas 
that I would rather not go into now to save you time.
    Ms. Brown. Thank you.
    Did you want to respond?
    Mr. Rosenker. I am in support of what the Administrator is 
trying to do. We are quite supportive of the action of trying 
to get the Congress to change the way the legislation is 
written. It is the only mode of transportation that the Hours 
of Service are dictated by statute rather than regulatory 
action.
    Ms. Brown. Mr. Shuster?
    Mr. Shuster. Thank you.
    Mr. Boardman, I think you just mentioned you did not have 
management or labor consulting when you were drafting what you 
are going to propose here, is that correct?
    Ms. Brown. In terms of the bill itself. For the 
regulations, though, the way that will be handled is we will go 
into the RSAC Committee which is the Rail Safety Advisory 
Committee where both labor and management are represented.
    Mr. Shuster. But on the legislation, though, you have put 
something forward. Did you consult with management and labor?
    Mr. Boardman. We have consulted on a regular basis and 
understand what labor and management believe or think about 
many of these things, but in the clearance process of the 
Federal Government, they are not in that clearance process.
    Mr. Shuster. But you feel confident of their views because 
obviously if we start to draft legislation, before we put 
something through, management and labor are certainly going to 
want to weight in and make sure that they are heard.
    Mr. Boardman. We believe it is absolutely critical that 
management and labor are heard in whatever it is that we 
develop in terms of a performance approach on the regulations, 
yes.
    Mr. Shuster. You testified about FRA's development of a new 
mathematical model that is going to be helpful in putting forth 
guidelines in rail's future fatigue management. Have you put 
that out into the scientific community? Have they reviewed it 
and what were their findings on that new mathematical model?
    Mr. Boardman. I think one of the reasons I brought Mr. 
Cothen with me today is the history and the amount of detail 
that have been involved in this whole scientific analysis. So, 
if it is OK with you, I would ask him to answer that.
    Mr. Shuster. Sure, absolutely.
    Mr. Cothen. The underlying model, the scientific model----
--
    Mr. Shuster. Can you pull the microphone closer?
    Mr. Cothen. Yes, sir.
    Mr. Shuster. Thank you.
    Mr. Cothen. The scientific model which is embodied in the 
tool which we are using at the Federal Railroad Administration 
has been developed by the U.S. Department of Defense and has 
been peer-reviewed in a major conference in which sleep models 
were reviewed by established experts in the field. In that 
review, it was concluded to be the most nearly accurate model 
available currently.
    What we have then done is we have taken the model, and we 
have applied it to real life railroad data, 400 human-factor 
train accidents and 1,000 non-human-factor accidents, and we 
have looked for correspondence to see if what one would think 
it would predict is in fact predicted. It satisfied that test 
with a high degree of statistical significance. I am sure that 
there will be additional peer review of the model as time goes 
forward.
    Mr. Shuster. Thank you.
    As we move forward on this issue, I know Mr. Boardman has 
already said that he doesn't have the statutory ability to 
change the law, but from what I have seen and what I have read 
is that the average worker in the rail industry is working 
about 250 hours as opposed to a trucker who works about 240 
hours and then down from there, an airline pilot, around 100 
hours a month. As we start to look at this and if we are going 
to pass laws and enforce the time standards onto railroad 
companies and into labor, how are we going to enforce that with 
the individual?
    I know myself, I go home with good intentions of going home 
and having eight hours of sleep, but then my son has homework, 
a project and I stay up later than I want to. How are we going 
to make certain that the worker, that the engineer, that the 
conductor is going to abide by those laws when those things 
come up in life? That is of great concern, and I would 
certainly be opposed to forcing an engineer or anybody to say 
you have to have eight hours of sleep, and in fact how do we 
enforce that?
    What are your thoughts on those types of situations?
    Mr. Boardman. I think, first of all, 250 hours, when you 
think about it, is 3,000 hours a year. That is 60 hours a week. 
So that is six ten-hour days a week on average, and that really 
is only an average. It is not clear, when that is talked about, 
as to whether or not that includes or doesn't include limbo 
time, and limbo time is neither time worked nor time off, and 
you are going to hear more about that as we go forward. So it 
could be a lot more than the 250 hours, or perhaps it is less.
    We are not actually saying that, and we know in the 
industry they want rested workers, and certainly workers want 
to be rested.
    I think one of the things that the model really shows and 
the scientific work shows is that if you have more time to 
rest, you will rest more. In some cases, because of the push 
that is out there today or has been out there in the past, 
there has been an inability to provide that kind of rest.
    But, again, our intent is to have a fatigue management mode 
or model, or part of what it is that we want to do in terms of 
regulation, doing something very different than FMCSA or FAA or 
others have done in the past. With the history that we have 
here, with over 100 years, with the scientific knowledge that 
we have today, and with the ability for us hopefully to come to 
an agreement where we know many progressive issues with 
railroads and unions have looked at how they might solve this, 
we can come together with a performance-based fatigue 
management plan.
    Mr. Shuster. I know if my time has expired, but I wonder if 
Mr. Rosenker could just respond to that.
    Mr. Rosenker. There has to be a bit of personal 
accountability in this too. No one is in your home, making sure 
that if you have the appropriate 10 hours or 8 hours of rest 
that has been guaranteed to you by the Hours of Service rules 
and that you are going to take advantage of that. But for the 
most part what you must be able to do is create at least that 
environment. The way the rules are right now in the railroad 
industry, that may not be accomplished. That may not be 
possible with this use of the limbo time.
    But I would like, if you will give me the opportunity, to 
compliment you, Mr. Shuster, and also my colleague at the FRA, 
the Administrator, on the recognition of the importance of a 
tool that we believe is the beginning of prevention of 
accidents in the railroad industry, and that is positive train 
control. We have seen some tremendous progress being made by 
the FRA and by the industry itself which will be a device 
ultimately in the event an engineer does, by accident, miss a 
signal or perhaps does something that may well be wrong in his 
locomotive. This device will help bring that locomotive to a 
stop and prevent a collision or an accident. So we are very, 
very pleased that we have seen this recognition and seen the 
progress by the Administrator.
    Mr. Shuster. Thank you.
    I have a number of questions. I will submit them for the 
record because I know the time constraints. Thank you.
    Ms. Brown. Thank you.
    I just have one follow-up question. Mr. Boardman, how will 
the Administration be able to deal with limbo time? I guess the 
follow-up question is: Is limbo time paid for by all of the 
railroads or how is it handled?
    Mr. Boardman. Limbo time is right now handled in that 
anybody who has limbo time is paid, but the interesting part of 
it is it is neither on-duty time nor is it off-duty time. It 
comes at the end of the hours of work schedule for the train 
crew, and it exists until their final relief point.
    What we are really looking for is really to have a 
performance-based approach, as I said, that can take into 
consideration any prior sleep deficit, the ability to plan 
rest, and the duration of the covered service period itself, 
and try to really work limbo time into an integral part of that 
analysis.
    Ms. Brown. Thank you.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you. I will submit something for the 
record, but I will keep mine to a minimum.
    One of the things that, Mr. Rosenker, you indicated that 
the FRA does not have the authority to do certain things. If 
they don't, who does?
    Mr. Rosenker. In Hours of Service, Congress. In the 1907 
legislation, it was created at 16 hours in the Hours of Service 
and changed later to 12 hours back in 1969. Although the FRA is 
in agreement with us philosophically, they don't have the 
statutory responsibility or capability to make those 
amendments. That is what I believe they are asking for in their 
reauthorization.
    Mrs. Napolitano. Can you tell me if any of those long 
hours, what portion of that might be attributed to the lack of 
trained personnel to be able to step in and take over some of 
those jobs?
    Mr. Rosenker. As far as the Hours of Service, I think both 
the operators and the companies wish to take advantage of as 
much operating time as they possibly can. I think that is the 
issue rather than lack of trained personnel at this time.
    Mrs. Napolitano. Then there is another one, that there have 
been fatigue training programs. Mr. Boardman, you have written 
in your testimony that railroads and labor organizations make 
significant efforts to deliver fatigue training programs and 
ensure ongoing awareness. Could you elaborate how effective 
these have been to reduce fatigue and improve safety?
    Mr. Boardman. Congresswoman, education and training of the 
railroad employees themselves is really an important factor in 
fatigue countermeasures that the FRA would continue to 
evaluate. Fatigue is a complex issue, as you well know.
    Mrs. Napolitano. Sir, may I interrupt?
    Mr. Boardman. Certainly.
    Mrs. Napolitano. There is an issue here that is not 
answered and that is under the training programs, somebody gets 
a slide presentation and that is it or a pamphlet to read and 
that is supposed to be training. Am I correct?
    Mr. Boardman. No. Actually, I think the industry has some 
Web sites now that people can go to, to talk about sleep 
hygiene. There has been a lot of study and work done to try to 
educate and train employees on what fatigue means.
    Mrs. Napolitano. Well, yes, true, but if they don't have a 
computer, then whose time is it on that they have to go on a 
computer, say, in a board room?
    Mr. Boardman. I don't know the answer to that.
    Mrs. Napolitano. Well, that would go to the core of my 
question which is: How do you get these individuals educated on 
the programs that you have and could we have possibly a copy so 
that we can see what programs you have in effect?
    Mr. Boardman. I think that with some of the work that Grady 
has done on the RSAC Committee, he can probably give you some 
real facts on that.
    Mr. Cothen. Congresswoman, the National Rail Alertness 
Partnership and the Work-Rest Taskforce, which is a labor-
management group, have talked about this and worked on this 
issue for a considerable amount of time, and I think that you 
will find that, in union publications which come to the homes 
of most of the employees and in railroad training programs, 
there is significant emphasis on the issue of fatigue and the 
importance of taking advantage of rest.
    Mrs. Napolitano. We are talking about training programs, 
sir, not the significance of getting rest. I am talking about 
training programs themselves, the actual training of the 
signalmen, of the locomotive engineers, of all the people that 
are involved. What training? To what extent do they have access 
to it? How many hours are required? When are they given the 
training?
    I have heard from a couple, and they say they do a slide 
presentation, and that is it. That is your training, kids.
    Mr. Cothen. I think awareness and education in this area 
are something we need to continue to work on.
    Mrs. Napolitano. You are not answering my question, sir. 
What programs are there?
    Mr. Boardman. Congresswoman, if you would like, I think it 
is best if what we did was give you a written response to your 
question.
    Mrs. Napolitano. If you would please with a copy of those 
programs for the record.
    Mr. Boardman. Certainly, I will do that.
    Mrs. Napolitano. Thank you, Madam Chair. I yield back.
    [The information received may be found on page :]

    Ms. Brown. Mr. Space?
    Mr. Space. Thank you, Madam Chair. I have no questions at 
this time.
    Ms. Brown. Mr. Lipinski?
    Mr. Lipinski. Thank you for your testimony. Right now, I 
just want to say I look forward to seeing tonight your 
recommendations, and I am sure that in the future we will have 
more to talk about on this issue.
    Thank you.
    Ms. Brown. Mr. Walz?
    Mr. Walz. No questions.
    Ms. Brown. No questions, OK.
    I guess the last question. Do you have additional 
questions?
    Mr. Boardman, you mentioned that signal maintenance could 
be adversely affected by unscheduled trouble calls on top of 
the normal eight hour day. What does that mean and how would 
the Administration bill address this issue?
    Mr. Boardman. Congresswoman, Madam Chairwoman, the signal 
employees can work up to 12 hours, but that can be increased by 
an additional 4 hours in case of an emergency. It was generally 
understood at the time the statute was passed that this could 
include one or more trouble calls due to a signal stuck on a 
red or a grade crossing warning system that either is 
continuously operating or failed to operate. This happens 
somewhat often, and if it is not followed by adequate rest, 
that can become a problem for the signal maintainer.
    Our bill would permit us to look at the whole picture and 
give them an opportunity for rest, give them an opportunity for 
rest prior to their tour of duty and the duration of their 
regular tour. We don't want to set up restrictions that keep 
signal employees from responding to emergencies, but we do want 
to make sure that they are rested and able to handle them well.
    Ms. Brown. Thank you.
    I want to thank the witnesses for their valuable testimony 
and members for their questions.
    The members of this Subcommittee may have some additional 
questions for the witnesses, and we will ask you to respond to 
them in writing. The hearing record will be held open for 
additional response.
    Thank you very much.
    Mr. Boardman. Thank you, Madam Chair.
    Ms. Brown. The second panel, please.
    The second panel is Dr. Hursh and Dr. Sherry. Is that 
correct?
    I want to welcome the second panel of witnesses, and I want 
to thank Dr. Hursh who serves as President of the Institutes 
for Behavior Resources in Baltimore, Maryland. He also serves 
as a professor at the Johns Hopkins University School of 
Medicine.
    Next we have with us, Dr. Sherry who is a professor at the 
University of Denver's Intermodal Transportation Institute.
    We are please to have you here with us this afternoon. Your 
full statement will be placed in the record. We would ask you 
to limit your testimony to five oral minutes and summarize it 
and then we will have some questions. I want to thank you and 
welcome you for coming out today.

TESTIMONY OF STEVEN R. HURSH, Ph.D., PRESIDENT, INSTITUTES FOR 
     BEHAVIOR RESOURCES; PATRICK SHERRY, PH.D., PROFESSOR, 
                      UNIVERSITY OF DENVER

    Dr. Hursh. Good afternoon, Madam Chairwoman and Ranking 
Member Shuster and other members of the Subcommittee. Thank you 
for inviting me to testify before you on the important subject 
of fatigue in the rail industry.
    The work I support was supported by the Federal Railroad 
Administration, but the remarks are my own perspective.
    By way of background, I am the former Director of Neuro 
Psychiatry of the Walter Reed Army Institute of Research, home 
of the largest DOD sleep laboratory and the technology I report 
is the result of over 12 years of research to develop a fatigue 
model for the Defense Department and six years of investment by 
the FRA to adapt it for use by the railroads. The model has 
been independently reviewed by the scientific community and has 
been adopted as the Defense Department war fighter fatigue 
model.
    Today I report that this model has now been validated as a 
measure of fatigue in the rail industry that can predict 
accident risk in rail operations. The development opens the way 
for the rail industry to use fatigue models as part of 
effective fatigue risk management programs. I will suggest some 
actions that can be taken now as a result of this new 
development.
    Fatigue is a complex physiological state characterized by 
lack of alertness and reduced mental performance often 
accompanied by drowsiness. Fatigue is clearly more than falling 
asleep at the switch. Fatigue causes a range of performance 
changes, often without self-awareness. The factors that cause 
fatigue, inadequate sleep and the body clock, have been 
extensively studied and are well understood, but there is no 
biological marker like a breathalyzer for alcohol. In the 
absence of a biological marker, a predictive mathematical model 
of fatigue based on work schedule information can give the 
organization an objective fatigue risk measure.
    To test the validity of this technology, an FRA-sponsored 
study was just completed, conducted with the cooperation of 
five railroads and the labor unions which examined 1,400 
accidents over 2 and a half years. The results I report today 
show the ability of a fatigue model to predict accidents caused 
by fatigue-induced human error.
    Chart 1 indicates that as predicted performance 
effectiveness scores decreased and fatigue increased, the risk 
of having a human factors accident increased, the blue dots. 
The results indicated a maximum increase risk of 65 percent at 
the highest level of fatigue and lowest effectiveness and a 
meaningful increase in risk when effectiveness scores were 
below 70. The fatigue model study that fatigue as measured by a 
fatigue model increases the risk of rail accidents.
    The question is how to respond to this information, and I 
shall offer several concepts for your consideration. First, 
fatigue cannot be totally eliminated. Approximately 22 percent 
of over the road rail operations occur between midnight and 
6:00 a.m. when people are naturally less alert and risk is 
elevated by 10 to 20 percent. So the goal of fatigue management 
cannot be to eliminate risk but rather to minimize unnecessary 
fatigue and manage the consequences of fatigue.
    Within the necessary boundaries of Hours of Service rules, 
whatever they may be, effective evidence-based or performance-
based fatigue risk management can effectively limit fatigue. 
Evidence of excessive fatigue shapes operating practices and 
individual lifestyle decisions towards reduced fatigue and 
better performance.
    The approach is based on four Ms: measurement, modeling, 
modification of practices and monitoring of results. At the 
center of the process, all the constituents--labor management, 
government--supported by the scientific community are at the 
table to formulate solutions. The process is driven by evidence 
of success and provides for continuous performance improvement.
    I would encourage the adoption of such programs as a 
complement to Hours of Service regulations. There are a number 
of enabling practices that can facilitate the processes 
assessed in my testimony.
    Beyond the current initiatives, the FRA could play a key 
role in advancing the development of fatigue risk management 
programs under Hours of Service regulatory authority comparable 
to the other modes of transportation. The FRA could set 
standards for acceptable programs and, more importantly, 
exercise regulatory function to examine the objective evidence 
of program effectiveness. As a scientist, I endorse that 
approach as the best prospect to minimize fatigue and improve 
rail safety.
    I would be glad to accept any questions. Thank you very 
much.
    Ms. Brown. How much additional time did you need, a couple 
more minutes?
    Dr. Hursh. No. I am fine, ma'am.
    Ms. Brown. OK.
    All right, Dr. Sherry?
    Mr. Sherry. Good afternoon, Chairwoman Brown and Ranking 
Member Shuster and other distinguished guests. It is my 
pleasure to testify before the Committee on this very important 
topic.
    Ensuring the safe and efficient movement of goods is key to 
our Nation's economic security and continued economic 
viability.
    Today I hope to make three main points. First, simply 
changing the Hours of Service laws such as decreasing hours on 
duty or lengthening time off will not necessarily reduce 
fatigue. Second, railroads should be required to establish 
fatigue countermeasure plans, evaluated by independent 
scientific panels and then be held accountable for those plans. 
Third, providing funding to a consortium of research 
universities for the continued study of fatigue countermeasures 
and measurement tools would expedite the identification of 
successful fatigue management programs.
    Over the past 12 years at the Intermodal Transportation 
Institute and the National Center for Intermodal 
Transportation, we have in over a dozen studies of over 3,500 
railroad employees who have completed fatigue surveys or worn 
actigraphs or other research measures. Their support has helped 
us to determine that there is no one single approach that is 
going to solve the problem and eliminate the risk of fatigue. I 
should point out that if it was that simple, labor and 
management would have agreed on it by now and we wouldn't be 
here.
    Fatigue is caused both by a lack of sleep and by the 
circadian rhythms of the human body. The longer one is awake, 
the less alert one becomes, thereby decreasing cognitive 
effectiveness. So if the Hours of Service law were changed to 
give people 10 hours off between shifts, this would be helpful, 
but individuals would still experience lowered levels of 
alertness when working between 4:00 and 5:00 in the morning. 
Plus, fatigue would still need to be managed with additional 
with additional countermeasures suggesting the need then for a 
more comprehensive plan. Let us see here.
    Sleep length varies according to the time of day. Looking 
at this graph, we see that if an employee works a midnight 
shift and tries to go to sleep at 7:00 a.m. or 8:00 a.m., there 
is a strong likelihood that this individual will obtain only 
four and a half hours of sleep. Fatigue is a function of the 
combination of hours asleep, hours awake and time of day 
relative to the circadian rhythms, and this needs to be taken 
into consideration when managing fatigue.
    In a recent study, 30 railroad employees wore actigraphs 
for one month. The average amount of sleep for the total group 
was six and a half hours of sleep for each 24 hour period which 
is equivalent to the National average for shift workers as 
reported by the National Sleep Foundation.
    Inspecting the individual data, we found that a typical 
pool engineer had a schedule that demonstrated an acceptable 
overall average of sleep but masked the fact that individual 
sleep episodes were very low on particular days as evidenced by 
this graph, the little short bars.
    Notice the spikes in the profile where the individual slept 
long periods following shorter sleep periods. This is likely 
the result of an accumulated sleep debt which occurs when an 
individual obtains less than seven or eight hours of sleep per 
night over consecutive nights.
    The best research available suggest that a person's 
reaction time decreases as cumulative sleep debt builds. 
Reaction times are thought to be related to unsafe acts. Thus, 
persons in this study appear to have developed sleep debt. In 
our sample, we found that people were working after having 
obtained less than five hours or more of sleep almost 50 
percent of the time.
    This leads to my second point which is that due to the 
great variability in conditions and circumstances involved, it 
is recommended that railroads be required to develop and be 
held accountable for comprehensive fatigue management plans. 
This non-prescriptive approach is currently being used in 
Canada and Australia and would provide for the most 
comprehensive and most flexible application of scientific 
principles to the management of fatigue in the railroad 
industry. U.S.-based railroads with Canadian operations have 
already complied with this approach and have filed FMPs, 
fatigue management plans, with Transport Canada.
    The Union Pacific has begun to use this approach. A short 
time ago, I served as a member of an independent scientific 
panel commissioned to review the UP fatigue management plan. 
The independent panel, without the involvement of the 
regulators, was able to review the plan and make 
recommendations to improve it.
    Given that it is nearly impossible to come up with a rule 
that covers all possible scenarios, FMPs should be implemented 
that utilize the principles that I have outlined in my 
submitted written testimony along with the supporting documents 
to address fatigue problems.
    My final point is to call for the allocation of more 
research funding. Just as we rely on more than one research 
university to search for the cure for cancer, this process 
could be faster and more expeditious if more scientists and 
researchers were involved. Currently, the FRA is funding the 
research and regulating as well. Collaboration and cooperation 
from railroad and labor would increase if the fear of 
regulation or punitive fines as a result of participation in 
research were removed. While the one study that the FRA had 
cited is significant and Dr. Hursh should be congratulated for 
his efforts, additional work is needed to prepare the model for 
utilization in the operational environment.
    In summary, in my opinion, the development of the FMP is 
the most viable way to ensure that the complex problem of 
fatigue is addressed, using the best scientific available 
knowledge. While changes or alterations to the existing Hours 
of Service would make some specific improvements, a mechanism 
for addressing the overall risk of working fatigue would not 
have been addressed.
    I would like to thank the Committee for inviting me to 
testify on this topic. I look forward to hearing and answering 
your questions. Thank you very much.
    Ms. Brown. Thank you.
    I am pleased that our distinguished full Committee Chair 
has joined us today, and I recognize him for any remarks he may 
care to make.
    Mr. Chairman?
    Mr. Oberstar. Thank you, Madam Chair. I thank you for 
holding this hearing and Mr. Shuster for his participation. He 
has a very keen interest in railroading with a major rail 
facility in his district. I know of your very keen attention to 
these issues, and I thank you, Madam Chair, for the splendid 
work you have put in over a period of several years.
    I have a statement of general observation about safety and 
fatigue that I will include in the record.
    I do want to ask, though, the panelists. You are measuring 
sleep. You are not measuring quality time between shifts. Could 
you address the broader question?
    I have done shift work when I was in high school and 
college, high school during summer months, working in college 
during the summer months. I watched my father in the 
underground mine, work 7:00 to 3:00, 3:00 to 11:00, 11:00 to 7 
and on the changeover shift which was always so difficult.
    It is not just how much time you are spending in bed, but 
it is how much quality time off that the worker has between 
shift. Rehabilitation is not just one aspect, not sleep alone. 
It is the entire rest time. You also have to have good quality 
of sleep.
    I have read much of the literature in the field on sleep, 
adequate rest. I understand that the issue is not only in 
railroading but for air traffic controllers, for pilots with 
whom I was just meeting--incidently, Madam Chair and Mr. 
Shuster, on Age 60 Rule which is something we will be visiting 
in another subcommittee--pilots on tugboats, on maritime 
vessels, and the Great lakes fleet.
    The commonality, as you described it well, the circadian 
rhythm, interrupted, does not recover quickly. So could you 
address the total cycle of time between shifts and the effect 
on the body and responsiveness and clarity of action and 
reaction time?
    Dr. Hursh. Mr. Chairman, I would be glad to try and address 
your question. You are right on the mark.
    Fatigue models, as they have been developed, take into 
consideration a number of factors other than the total amount 
of time available to sleep. Ten hours of rest time or available 
time to sleep during the day time hours is not equivalent to 
ten hours opportunity to sleep at night, and the model takes 
that into consideration. It is not given the same amount of 
weight because your sleep during the day simply isn't as 
restorative.
    The model also considers disruptions in your circadian 
rhythm as you switch from working days to working nights and 
back and forth, your circadian clock becomes out of sync with 
your work demands, and the model takes that into account as 
well.
    There are issues that no model can take into account--the 
quality of the time that you have and some of the activities 
that you engage in, your quality of your health and so forth--
but to the extent possible, the models that we have take into 
account most of the documented factors that determine the 
ability of sleep to restore your functioning. I think it is a 
great step ahead to be able to use those to evaluate 
opportunity to sleep and determine how well they contribute to 
restoring performance.
    Dr. Sherry. Let me just add a couple of points. I think you 
are absolutely right. The issue of time in bed is one of the 
many factors, and I understand that Dr. Hursh's model does take 
that into account.
    I think the overriding concern is making sure that people 
have adequate time so that they are not put in the position of 
making choices between spending time with their family, going 
to the doctor, engaging in leisure activities that would 
contribute to quality of life. I think what happens if you 
address just the hours on duty or off duty is that that narrows 
the options that people have. So in terms of improving quality 
of life and reducing job stress and most likely the other 
associated health concerns related to shift work, I think a 
more comprehensive approach needs to take place. That is why I 
recommend that the use of fatigue management plans be developed 
as opposed to a simple number of hours type of solution that 
might be thought of.
    Thank you.
    Mr. Oberstar. Thank you both for your response. Thank you 
very much.
    Does better scheduling or a different kind of scheduling 
make a difference in the responsiveness of workers?
    I have in mind testimony or at least conversations that we 
had with over the road bus drivers. Some of the Greyhound Fleet 
have drivers who work only, as I call it, we call it in the 
mines, the graveyard shift, 11:00 to 7:00. They do it every 
day, though, every week. They have their time off, but that is 
their shift. They know it. Their body, they say, drivers say, 
adapts to it. Others will work just 7:00 to 3:00. Others will 
work just the 3:00 to 11:00 shift.
    There is a railroad that described for me a process where 
their outbound train, for want of a better term, the locomotive 
engineer operates for half of the shift, stops, gets on an 
inbound train and works the other half of the shift going home 
and is able to be at home for the rest period that he needs. Do 
those changes in shifts and more predictability in shift work 
make a difference?
    Dr. Sherry. Yes, I think you are describing the Illinois 
Central CN approach. They call it the mid-trip switching where 
the crews operate the equipment halfway and then turn around, 
switch trains and come back to their home terminal. That is a 
very desirable scheduling plan, and many people are very 
satisfied with it. I think it does improve a person's 
restiveness, their feelings of restiveness, and in addition it 
also improves their overall feeling of positive control over 
their life that they are able to return to their home terminal, 
sleep in their bed and become better rested.
    I think the other piece of that, however, is that you 
shouldn't lose sight of the fact in this that it is still 
important to have an adequate numbers of hours of sleep and 
that a schedule that is devised in that way could in fact 
provide that.
    Having said that, that might not work in some other 
locations. The Illinois Central CN region, as I understand it, 
is nicely suited to that kind of an operation, whereas for 
example in Northern Canada, for example, the Northern Manitoba 
line, it is difficult to get more than one train over a certain 
segment of territory in under 13 hours.
    So there needs to be flexibility. There needs to be the 
opportunity to create many different types of solutions. No one 
schedule is going to solve the problem.
    Mr. Oberstar. Dr. Hursh?
    Dr. Hursh. Mr. Chairman, I agree with Dr. Sherry's analysis 
that it would be dangerous to think that there is one single 
solution that is going to fit every railroad's operating 
demands, and that is why I think the consensus is that a 
flexible fatigue risk management program is the best approach, 
taking advantage of opportunities to apply wisdom from 
different railroads that might work in one particular 
situation.
    But the most important thing is that we build into that 
kind of a system, the ability to monitor the outcome and make 
sure that what happens, that the result of that process, 
whatever it is, creates an improvement in performance and a 
reduction in fatigue. Without that kind of monitoring to ensure 
success, this kind of a program will lack accountability. I 
think that if given the appropriate authority, the FRA can 
invest in having these sorts of programs and exercise authority 
to ensure that performance is measured that evidences success.
    Mr. Oberstar. Thank you very much for your contribution, 
very substantial.
    Thank you, Madam Chair.
    Ms. Brown. Thank you, Mr. Chairman.
    Mr. Shuster?
    Mr. Shuster. Thank you.
    I am having technical difficulties.
    Ms. Brown. OK.
    Mr. Shuster. Sorry about that.
    The question that I have is, first of all, I believe it was 
Professor Sherry, you mentioned that it was the Canadian and 
Australian rail companies already have instituted a fatigue 
management plan?
    Dr. Sherry. That is my understanding, yes. In fact, I was 
invited to review the Canadian program.
    Mr. Shuster. Do you have any statistics since it has been 
in place? Have the accident rates gone up, gone down, stayed 
the same, injury rates?
    Dr. Sherry. I am sorry. I don't have that information.
    Mr. Shuster. You don't have that. Do you have any idea how 
long it has been in place?
    Dr. Sherry. It has been in place a couple of years.
    Mr. Shuster. A couple of years, OK.
    Dr. Sherry. I have it somewhere, but I don't have it right 
with me.
    Mr. Shuster. I will come back to a question that I asked 
the first panel, and I am going to continue to ask this, and I 
am not advocating forcing people who work on the rail to have 
eight hours of sleep because I don't think that is possible for 
us to enforce. I think it was Mr. Rosenker who mentioned that 
when people have more time off, they tend to have more rest. Is 
that your feeling?
    My concern is--I don't know if you were in the room when I 
asked the question before--if we mandate that people can only 
work certain hours and have to have a certain amount of time 
off, there is no guarantee that you are going to go home and go 
to sleep for eight hours. You are going to go home, more than 
likely like most Americans, and it is snowing out today, I am 
going to shovel the walk. The first thing in the morning I am 
going to get up to help my child with homework. Can you comment 
on that, especially the comment that was made that the more 
time off people have, generally the more rest they get?
    Dr. Hursh. I think you are quite right. There is no way we 
can legislate responsibility on the part of the employee. All 
we can do is provide an opportunity for them to get the 
adequate sleep that they need. Training is certainly an 
important element of this to inform them of the importance of 
getting rest, so that they can be competent and fit for duty 
when their time is called.
    What is important here is that we recognize that when they 
have that opportunity to sleep, they also have predictability 
of the schedule so that they can use that opportunity 
effectively to get naps prior to work so that they are well 
rested when they are called. I think the only responsibility, 
the only power that we have here is to ensure that those 
opportunities are available.
    But I do think it is a shared responsibility. This is not 
just a problem of the railroads providing opportunities. It is 
also a responsibility of the employees to take that opportunity 
and use it effectively to get adequate sleep. I don't think 
anyone is suggested that this responsibility falls on the 
shoulders of any one constituent.
    Dr. Sherry. January, 2005, that is when I think the 
Canadian law went into effect.
    Mr. Shuster. Thank you.
    Dr. Sherry. You are welcome.
    My comment about that is I think there is some truth to the 
idea that more time off, the more likely you are to get rest.
    But the other side of the problem is that, as I mentioned 
in my remarks just a couple of moments ago, that doesn't 
prevent a person who has been ``well rested,'' showing up and 
having to go to work at 3:00 in the morning, and if they have 
been sleeping at that time normally, they are still going to be 
tired. Now they can learn to kind of cope with it. As one of 
the Congress persons earlier mentioned, they can learn to deal 
with that and to learn to apply specific countermeasures, but 
that is why a more comprehensive, holistic approach needs to be 
applied.
    Mr. Shuster. Then the next question I have to follow that 
up is I understand that fatigue-related accidents are more 
common after an employee comes back after vacation. So how does 
that square up if you have taken a week off?
    I know when I come back to work, I am generally more 
rested. How does that square with if you are given a week off 
or you are taking a week off or a couple days off?
    Dr. Hursh. Obviously, the conditions that would occur would 
have to be looked at on an individual basis. One of the 
conditions that often occurs that can conspire against you, 
even after you have been on a vacation, is that you come back. 
You are available for duty at 8:00 in the morning. You have 
gotten up at 7:00 and you are ready to go. You are well rested. 
But you don't know when you are going to be called. Then what 
happens is 10:00 that night, you get called to come work, and 
you may have been up all day because you have been on the 
rhythm of sleeping all night and being up all day. That is what 
you do when you are on vacation.
    You report to work at 10:00 at night, and you have been 
awake since 7:00 that morning. So you go to work fatigued, and 
that kind of a pattern can conspire against you even under the 
best of circumstances.
    Mr. Shuster. So, disrupting sleep patterns?
    Dr. Hursh. Well, you are disrupting sleep patterns and 
having lack of forewarning that you are going to have to take 
an afternoon nap to be prepared to go to work.
    Dr. Sherry. May I comment on that?
    Mr. Shuster. Sure.
    Dr. Sherry. The other piece of that, and this is I think 
why the railroads, a lot of them, went to what is called the 
8:00 a.m. markup. It used to be you would mark up at 12:01 
after vacation, so you would be eligible to be called 
immediately after midnight.
    You have been off for a week, and you have been going to 
bed at, let us say, 11:00 at night and getting up at 7:00 in 
the morning. If you are called at 2:00 in the morning or if you 
are called at 1:00 in the morning and you need to go to work at 
3:00 in the morning, once again you are going to be working 
against your circadian rhythm. The having a week of rest is no 
guarantee that you are going to show up and be absolutely 
rested if you are called for an early start time, for example.
    Mr. Shuster. Thank you.
    Ms. Brown. There have been significant changes in the rail 
industry since the Hours of Service Act was enacted in 1907 
which was 99 years ago. I know that because that is the year my 
grandmother was born.
    Do you believe that an increased growth in the rail 
industry and the decreased number of train crews have an impact 
on fatigue and fatigue-related accidents? That is to both of 
you.
    Dr. Hursh. Madam Chairwoman, shortages of personnel are 
certainly one of the drivers of fatigue in the rail industry as 
in any industry. If the industry does not begin to manage 
fatigue more proactively, the problem promises to get worse. 
Over the next five years, the industry will experience the 
exodus of the baby boomers, and I am included in that group. 
They will be retiring. The railroading industry is going to 
have to make jobs on the railroads more palatable for the 
current generation if they are going to fill those openings. If 
they don't adopt fatigue management plans to manage the 
stresses that create fatigue, it is going to be hard to fill 
all those vacancies, and that is simply going to put additional 
stress and increased fatigue on those that remain.
    So I believe that the adoption of fatigue risk management 
plans will ultimately help to improve the retention of 
employees, improve their morale, improve the recruiting of new 
employees and, in short, will serve to pay back dividends for 
the investment in those plans.
    Dr. Sherry. That is a very complex question that you have 
asked, Madam Chairwoman, about the relationship between the 
number of employees and changes in the work practices. 
Certainly, we have seen a number of improvements in technology 
which have contributed to the overall productivity of the 
railroads. In my work with other countries, I know that the 
U.S. railroad industry, the freight industry in particular, is 
the envy of the rest of the world.
    I am not sure if this particular change that you have 
identified is statistically related to an increase in fatigue-
related accidents. I think it is important to recognize that 
fatigue-related accidents are the result of individual actions 
and the capacity of the individual to safely perform the act is 
related to the amount of sleep and the amount of time off. So I 
am not sure what the exact statistics are in terms of the 
changes. The other thing is it is only recently that we began 
to consider looking at the contribution of fatigue as a factor.
    It is a complex question. I think there may be some 
additional research that needs to look into that, but it is 
certainly something that can be significantly addressed by 
fatigue management plans.
    Ms. Brown. Mrs. Napolitano, do you have a question?
    Mrs. Napolitano. Thank you, Madam Chair.
    To that same question, Professor, one of the questions I 
had asked previously in regard to the lack of trained employees 
because right after 9/11 my area was suffering from lack of 
personnel to carry some of the freight increase in the two 
ports of Los Angeles and Long Beach, very well documented. To 
me, that would have caused fatigue because you are calling in 
employees to come in and fill in or work longer hours which 
then leads me to the question of overtime.
    If you ask an employee, can you work overtime, they are 
going to jump on it if they are the kind of employee who I 
would assume would want to work the overtime. Did you take into 
consideration any of those factors?
    Dr. Hursh. Well, the study that I reported on today really 
was an investigation of five railroads and samples of work 
histories from those five railroads, and we didn't drill down 
to see specifically what kind of manpower decisions resulted in 
the schedules that we analyzed. I am not an expert on the 
manpower decisions that have been made that might have created 
the schedules that I evaluated nor am I an expert on the 
training programs that are utilized by the railroad industry.
    I do know that one of the factors that can be used to 
manipulate fatigue in any industry, but in particular in the 
railroad industry, is how many people you put on the system to 
drive the trains. The fewer the individuals available, the more 
work is going to have to be performed by the ones that are 
available. Obviously, they need to be well trained if they are 
going to fulfill their function. A fatigued employee that is, 
in addition, poorly trained is not a very safe employee.
    Mrs. Napolitano. Thank you, sir. That is one of the things 
that was a question in the derailments in my area. There were 
five derailments in less than a year that were questionable. 
Thankfully, none of them resulted in personal injury. We were 
never able to get information specific to the causes other than 
failure of a rail tie, a joint bar, if you will.
    It is very, very critical because there is going to be 
increased traffic in our area specifically and I am sure in 
other parts of the Nation, that if we don't work and continue 
to provide the training, be able to have the work hours, the 
rest in between to be able to ensure that they are not as 
fatigued because they will be fatigued, working. Everybody gets 
fatigued. We will be putting people at jeopardy, and that is 
something I think that people don't want us to go over lightly, 
if you will, but address it to the greatest extent that we can.
    Professor, the findings in the 3,500 employee survey, have 
you reported on those?
    Dr. Sherry. Those are described in my book entitled 
Managing Fatigue in the Transportation Industry. I have a copy 
that I can make available. Many of the studies involving 
training and with the over 3,500 employees are summarized in 
that. There is also a summary report of those in the monograph 
that I provided to the Committee as well.
    Mrs. Napolitano. Dr. Hursh, I am very interested in the 
fact that you are a psychologist because I have a very great 
interest in mental health issues. When you do fatigue research, 
and I know you stated something to the effect that you have 
other issues, drug and alcohol use as regards the impact it 
might have on the ability to react or be able to carry forth.
    Fourteen hundred accidents, was that the quote, the figure 
you gave?
    Dr. Hursh. Yes, ma'am, 1,400 accidents were submitted for 
analysis in that study.
    Mrs. Napolitano. What were the minor accidents? In other 
words, what were the major accidents and the minor accidents 
actually reported on? Were they the kinds where somebody forgot 
to put a lock on and their locomotive went on its own because 
some of those are not reportable? In other words, the railroad 
does not report them to the FRA.
    Dr. Hursh. Congresswoman, these were 1,400 reportable 
accidents, so they were the kinds of accidents which would have 
reached the threshold of sufficient damage or loss of life or 
injury that would have required it to be reported to the FRA.
    Mrs. Napolitano. Do we or does the FRA or does anybody 
record any of the accidents that do not result in major damage 
but again are accidents that could contribute to serious 
accidents?
    Dr. Hursh. I don't know. Neither of us know the answer to 
that, ma'am. The one initiative that I know the FRA has 
undertaken is a close call study to look at changes in 
performance or close calls that would be short of a serious 
accident. This is a confidential non-punitive way to collect 
information on close calls. I think it is an extraordinarily 
important study or initiative. I am not intimately involved 
with it, but it certainly would contribute information that 
could help us understand better some of the factors that 
contribute to close calls that are forewarnings of the 
potential for an accident if the factors aren't addressed.
    Mrs. Napolitano. But you have no access to those?
    Dr. Hursh. Well, that whole process is confidential, and I 
have no access to it.
    Mrs. Napolitano. Madam Chair, may I request that this 
Committee specifically ask for some kind of report on that 
because that should be part of the investigation that we should 
be looking at to determine whether or not, as he states, it 
could contribute to a major accident in the future.
    Ms. Brown. Without objection.
    Mr. Lipinski?
    Mr. Lipinski. Thank you, Madam Chairman.
    As a trained engineer although not a train engineer and as 
a social scientist, I appreciate the research you have done. It 
certainly will be helpful as we work on legislation on this 
issue on fatigue, certainly a very critical issue when we are 
dealing with safety on the rails. I just hope maybe also you 
could do some research on fatigue among public officials and 
figure out any tricks that we can use so we can suffer from 
less fatigue.
    Thank you very much for your testimony and for your work.
    That is all, Madam Chairwoman.
    Ms. Brown. Thank you.
    Dr. Sherry, in an article entitled Hours of Service 
Regulation in the U.S. Railroad Industry: Time for a Change, 
you made a number of suggested improvements for hours on duty. 
Can you talk about those suggestions a little more, and in your 
answers, can you tell us whether you believe something should 
be done to address limbo time? It seems to be a significant 
contributor to fatigue.
    Dr. Sherry. Yes, I would be happy to discuss that. In the 
article, I made a number of, I discussed a number of different 
scenarios that might be considered and talked about the 
importance of the need for anchor sleep especially after long 
duty periods. I talked about the needs for the use of napping 
as an appropriate countermeasure. I talked about the importance 
of understanding that the cumulative effects of sleep debt can 
in fact be related to the occurrence of delayed reaction time. 
All of those factors are detailed in the article, and I would 
urge the Committee to look at those more carefully.
    However, I wanted to be cautious in simply coming up with a 
list of do this, do this, do this because I don't think that is 
the way to go. I think it is important to create a mechanism, 
to create a process that everyone is able to utilize these 
particular principles.
    Having said that, the comment about a limbo time is a 
significant one. I read over the testimony of the gentleman 
from the BLET, and I share people's concern about the length of 
limbo time and the away time that a person spend on duty in 
that way. However, I think the important thing to keep in mind 
is the cumulative number of hours is the factor, is one side of 
the equation. The other side of it is the amount of recovery 
time that a person has after that lengthy work period.
    I am not sure I would create a rule--I will leave that to 
you, where to draw the line, but I would put both together. If 
there is going to be long work hours, there needs to be 
sufficient recovery time.
    Thank you.
    Ms. Brown. Mr. Shuster?
    Mr. Shuster. Nothing further.
    Ms. Brown. Mr. Oberstar?
    Mr. Oberstar. I would like to have the panel's view about 
backward rotating shifts. It is a matter that was of some 
extensive discussion in the course of our consideration of the 
Hours of Service rule about six years ago or so when we went 
through that process in the Committee and became quite a point 
of dispute in the trucking sector of power companies who have 
their crews working out on outages due to storms. We had quite 
an extensive discussion about backward rotating shifts and the 
effect on alertness and response readiness of crews. Give me 
your thoughts about those matters.
    Dr. Hursh. Mr. Chairman, the scientific consensus, I 
believe, on this process is that you really need to look at the 
details of how the backward rotating shift is implemented and 
how much time for recovery sleep there is between shifts and so 
forth. If you analyze backward rotating shifts with a fatigue 
model, sometimes they can be detrimental to performance, 
sometimes they can be fine. It depends on how they are 
implemented, how many off duty days there are between on duty 
days and so forth.
    The reason that it is controversial, I think is there is no 
single rule of thumb that can determine whether a particular 
backward rotating shift is good or bad. You need to submit it 
to analysis by a fatigue model or some other kind of 
sophisticated approach.
    Dr. Sherry. I agree. I have run backward rotating shifts 
through Steve's model, and they come out looking very, very 
good, some of them. It is really a very popular solution, 
though, I think from a quality of life standpoint, and so I 
think that needs to be taken into consideration.
    Going back to the Congresswoman's point about training, how 
people use appropriate fatigue countermeasures, how people 
prepare themselves for those types of work and duty periods. I 
have looked at very compressed and extended schedules and 
people, if they are prepared, can work them very effectively, 
but they have to kind of really focus. They have to give up a 
lot of social activities and focus primarily on that kind of an 
operation. I think it is a controversial topic because people 
like it, but it may or may not be the most advantageous.
    Mr. Oberstar. Dr. Hursh?
    Dr. Hursh. Mr. Chairman, at the risk of sounding like a 
broken record, I think that this speaks, though, to the need 
for a flexible approach where we submit the practices of any 
particular railroad or practices of any particular location to 
a fatigue risk analysis that would include understanding the 
particular schedules that are in force, modeling the effects of 
those schedules and modeling the impact on fatigue. Only in 
that way where we have a performance-based, evidence-based 
approach are we going to be able to get to solutions which are 
truly effective.
    Trying to make rule of thumbs judgments about whether this 
is a golden schedule or that is a terrible schedule is probably 
not the way to solve the problem.
    Mr. Oberstar. There is a practice in railroading called 
limbo time, the time when trains' hours of service are expired 
but they are not yet at their final destination, final relief 
point. The crew is expected to be awake and alert and able to 
respond to situations, follow the operating rules. What 
experience do you have with limbo time?
    Dr. Hursh. The current Hours of Service rules, as you know, 
at minimum require eight hours of rest between shifts, but we 
know that eight hours rest does not really afford the employee 
eight hours of sleep opportunity when you factor in things like 
commute time, limbo time which doesn't count as on duty time 
and call time, the time between when they are called and when 
they report for work. So as a practice, the eight hour rest 
rule does not really provide an eight hour sleep opportunity.
    But before we jump to some single solution, I really would 
still prefer to see any change in the regulations, whatever 
they might be, to be enacted as part of an overall regulatory 
authority conferred on the FRA similar to all the other modes 
of transportation and that those rules, whatever they may be, 
be designed within that kind of framework. Ultimately, though, 
I think new rules, whether they be to compensate for limbo time 
or to give defined days off or whatever the solution might be, 
that they be tried and enacted at the grassroots level within 
evidence-based programs similar to the 4 Ms that I was 
describing earlier. It is only in that kind of a framework that 
we can assure that the solution will fit the problem and will 
be compatible with the work demands and the operating demands 
that are placed both on the employee and on the operator.
    Mr. Oberstar. Not all modes are comparable. You can't just 
say compare practice in one mode of transportation to another. 
In aviation, there is duty time and flight time, and they are 
two different items. When I chaired the Aviation Subcommittee, 
it took a very long time and many hours of hearings and 
meetings in camera--as we say in Latin in my office when we 
hammer out a few items--to get a definition of what is flight 
time, and it finally came down to when the brake is released at 
the gate and the aircraft backs away. When does it end? When 
the brake is applied at the gate of the destination flight.
    Then you have duty. You may be on duty for a much longer 
time than you are actually flying. All of that factors into 
fatigue, and the same with flight attendants. The 14 hour rule, 
it took the FAA 15 years with a lot of prodding from the 
Committee and finally legislation to implement a rule.
    Now you say you want flexibility but the Hours of Service 
rules were first established in 1907. There are a couple of 
amendments to it, and yet we still have problems serious enough 
for the NTSB to have repeatedly chided this industry and the 
FRA and asked them to take more vigorous action on Hours of 
Service for railroad employees.
    Dr. Sherry. If I might respond to this point here about 
limbo time, I think it is complicated. You are talking about 
when you say the gate. We have done a study with flight 
attendants, the amount of time that they are working versus 
when they are not working. Frankly, the bottom line is if you 
are awake and you are not sleeping, in terms of fatigue, that 
is what we should be talking about. That is why I keep saying 
it is about the amount of time you are awake and the amount of 
recovery time available.
    My understanding of the FRA rules is that when people are 
``in limbo time'' they are not technically responsible for any 
operating or safe practices. So that is great in terms of 
protecting the public and the operation of the equipment, but 
from the point of the individual, they are still awake and not 
in their bed. So the question is: How do you take that into 
account? What do you do with it?
    I would argue that you need to look at it from a recovery 
time point of view to make sure that you have protected the 
individual and in their next duty period in order to be able to 
operate safely.
    Mr. Oberstar. Dr. Hursh, we need to get on to the next 
panel, but please I want your contribution.
    Dr. Hursh. I simply wanted to add, though, that I don't 
want this comment about flexible fatigue management plans to be 
interpreted as there would be a total elimination of Hours of 
Service rules. I am not sure that that is the approach that we 
are suggesting.
    What we are saying is that within the boundaries of Hours 
of Service rules, there needs to be additional barriers to 
fatigue, and it is only with those additional barriers that 
themselves would be flexible, that we are going to reach a 
solution.
    Mr. Oberstar. Thank you very much for your very valuable 
contribution and for your writings on the subject matter. You 
make a great contribution to safety.
    Dr. Sherry. Thank you.
    Dr. Hursh. Thank you, sir.
    Ms. Brown. I personally want to thank you all for your 
valuable testimony and the members for their questions. I want 
to thank you again. We will be submitting additional questions 
in writing.
    Thank you.
    Dr. Hursh. Thank you, Madam Chairwoman.
    Dr. Sherry. Thank you.
    Ms. Brown. And for the last panel, I know that we have 
expedited this afternoon, and I want to thank you all for that 
also.
    I want to welcome the final panel of witnesses. I know this 
is a very difficult afternoon, but we have already scheduled 
this meeting, and this is such an important issue. I want to 
say right up front that I appreciate you all for being here 
today.
    Mr. Hamberger who serves as the President of the 
Association of American Railroads, welcome.
    Next, Mr. Dealy who is Vice President of Transportation for 
the BNSF Railroad, thank you for being here, sir.
    Mr. Pontolillo, who is the Director of the Regulatory 
Affairs for the Brotherhood of Locomotive Engineers and 
Trainsmen, he is representing the entire Rail Conference 
Division of the International Brotherhood of Teamsters, thank 
you, sir, for being here.
    Mr. Brunkenhoefer, who is the National Legislative Director 
for the United Transportation Union and Mr. Mann who is joining 
him today and Mr. Parker who is the Legislative Director of the 
Brotherhood of Railroad Signalmen, we are please to have all of 
you here with us this afternoon.
    I appreciate your patience in waiting to hear the other 
panel, but I think it is very important that you hear what the 
other panel had to say and their conclusions. Your full 
statements will be placed in the record. We ask that all 
witnesses try to limit their testimony to five minutes or a 
summary of their written statement as a courtesy to the other 
witnesses and, of course, what is going on in the community.
    We will begin with Mr. Hamberger. Please proceed.

  TESTIMONY OF EDWARD R. HAMBERGER, PRESIDENT, ASSOCIATION OF 
       AMERICAN RAILROADS; DAVID DEALY, VICE PRESIDENT, 
TRANSPORTATION, BNSF RAILWAY; THOMAS A. PONTOLILLO, DIRECTOR OF 
  REGULATORY AFFAIRS, BROTHERHOOD OF LOCOMOTIVE ENGINEERS AND 
 TRAINMEN; JAMES BRUNKENHOEFER, NATIONAL LEGISLATIVE DIRECTOR, 
   UNITED TRANSPORTATION UNION; LEONARD PARKER, LEGISLATIVE 
          DIRECTOR, BROTHERHOOD OF RAILROAD SIGNALMEN

    Mr. Hamberger. Thank you, Madam Chairwoman. I appreciate 
the opportunity to be here on behalf of the Association of 
American Railroads to discuss issues surrounding the Hours of 
Service Act and fatigue management. I share your view that this 
is an incredibly important topic.
    Before I begin, I would like to, on the record, 
congratulate Mr. Oberstar for his ascendancy to the 
chairmanship of the full Committee. He was not here when I 
testified last week. Congratulations and I look forward to 
working with you, Mr. Chairman.
    I would also like to take this opportunity to pay my 
respects to former FRA Administrator Jolene Molitoris who is 
with us in the audience here today of her own volition. She 
began the Rail Safety Advisory Committee which is a cooperative 
effort of management, labor and the FRA which has made some 
major contributions to improving safety in the industry, and I 
want to thank her for that and all the other efforts that she 
initiatedd.
    Railroads want properly rested crews. It is not in a 
railroad's best interest to have employees who are too tired to 
perform their duties properly. That is why railroads have long 
been working diligently to gain a better understanding of 
fatigue-related issues and finding innovative, effective 
solutions to fatigue-related problems. Properly rested crews 
are critical to safe, efficient operations.
    I want to reiterate my testimony from last week. Overall, 
our industry safety record is excellent. Between 1980 and 2005, 
the overall train accident rate dropped by 64 percent, and the 
employee casualty rate fell 79 percent. What is more, data 
through the end of November indicates that 2006 will be the 
safest year on record in terms of the train accident rate, the 
employee casualty rate and the grade crossing incident rate. 
When using the 2006 data, the 1994 to 2006 timeframe will 
actually reflect a 9.2 percent reduction in the accident rate.
    Having said that, fatigue issues concern us, and we 
continually search for methods to reduce fatigue in the 
industry. In the interest of managing fatigue-related issues, 
the industry has adopted a set of principles to guide such 
efforts. Now let me briefly numerate those.
    Principle number one, railroads want fully rested crews.
    Number two, after 12 hours of service, crews in limbo time 
should receive additional rest after that limbo time, and that 
is consistent with what you heard from Dr. Sherry on the 
previous panels that it is the combination of the time on duty 
and the time in limbo time and then the opportunity to rest 
afterward.
    To the extent practical, fatigue management policy should 
be based upon scientific research.
    Four, railroads are willing to provide more than the 
statutorily required rest time at both home and away terminals 
to assure that crews are fully rested.
    Five, railroads are willing to require employees to take 
time off for rest opportunities.
    Six, fatigue management issues are a joint responsibility 
of the railroad and the individual employees.
    We have already made substantial progress in addressing 
fatigue issues. As my testimony illustrates, 83 percent of 
employees work less than 200 hours a month, and 95 percent work 
less than 250 hours a month.
    A variety of fatigue countermeasures have been employed. 
They include increasing the minimum number of hours of rest at 
both home and away terminals, implementing a return to work in 
the morning if time off work is 72 hours or more, evaluation 
and adoption of a sophisticated fatigue modeling computer 
program, permitting napping by train crew members under limited 
circumstances, sleep disorder screening and improved standards 
for lodging in away from home facilities that provide blackout 
curtains, white noise and increased soundproofing.
    The importance of education in combating fatigue cannot be 
overstated. Since the value of fatigue-related initiatives is 
highly dependent upon the actions of employees while off duty, 
employees must make the proper choices regarding how they 
utilize their off duty time as Mr. Shuster has indicated. 
Consequently, an educational web site designed solely for 
railroads and rail employees is under development by the 
railroads and the American Public Transit Association to 
provide general information to employees about alertness and to 
identify possible sleep disorders. The site will include a 
self-assessment tool and an explanatory letter about sleep 
disorders that employees can take to their physicians.
    Railroads' commitment to safety is absolute. Combating 
fatigue, however, is a shared responsibility. Railroads 
recognize that they must ensure employees have sufficient 
opportunity to rest, and they are open to reasonable changes to 
the Hours of Service Act to help assure this outcome. For their 
part, employees are responsible for using a sufficient amount 
of the time made available for them to actually rest.
    The railroad industry looks forward to working with the 
Committee, the FRA and our employees in developing further 
approaches to fatigue-related issues.
    Thank you for the opportunity to be here today.
    Mr. Dealy. Good afternoon, Chairwoman Brown, Ranking Member 
Shuster and members of the Subcommittee.
    In my position as Vice President of Transportation for BNSF 
Railway, I am responsible for the overall transportation 
operation of BNSF's 34,000 mile rail network and just over 
20,000 rail employees. I oversee field operations, train 
dispatching, crew management and locomotive distribution.
    I am responsible for the safety of these 20,000 plus 
employees which is a responsibility that we at BNSF take very 
seriously, and we believe our track record shows this. Since 
the year 2000, we have reduced our injury rate by 48 percent, 
meaning 182 fewer injuries in 2006 than in the year 2000. On 
top of the fact that we have had 24 percent more employees. 
Derailments over that same period are down 21 percent on an 
incident per train mile basis.
    We believe that fatigue can be a serious issue and have 
addressed it in a combination of improved policies and 
processes as well as changes in labor agreements. In my 
testimony this afternoon, I would like to outline for you the 
scope of the problem which is knowable and well understood by 
the railroad industry, detail for you some of the steps that 
BNSF has taken in partnership with our employees and unions to 
manage the fatigue issue down to a very narrow set of employees 
and suggest to you some solutions that are achievable.
    I will point to page number one in my handout. Thirty years 
ago, railroads were largely made up of traditional box car type 
trains moving in balanced train flows over relatively short 
crew distances. The normal distance a train crew would operate 
was between 100 and 125 miles, and most of our employees would 
have to work every day. A high density corridor at that time 
would be about 20 trains each way a day.
    Our business today, however, is driven by a large network 
of long distance trains loaded with double stacked 
international shipping containers, unit coal and grain trains 
all moving distance of over 2,000 miles. It is considerably 
more varied and complex. A great majority of our through 
freight crews now operate over assigned crew districts greater 
than 260 miles with some over 300 miles. We pay our train crews 
by the mile, so compared with the shorter runs 30 years ago, 
many of our employees can make the equivalent of six days pay 
in one round trip, allowing them to be at home two to three 
days between trips. Yes, two to three days between trips. On 
these territories, we now run 100 trains a day, quite a change 
from 30 years ago.
    On slide four, on our railroad, there are two distinct 
types of work assignments for train service employees, and you 
can see it on the slide in the room. Over 20 percent of our 
active employees work in yards, terminals or perform pick-up 
and delivery services in our industries. They have set on duty 
times and set days off, and many of these employees work a 40 
hour work week.
    The other 80 percent of our employees work in over the road 
train service where two person train crews, a conductor and 
engineer, perform round trip service from their home terminal, 
traveling to an away from home terminal, getting rest and 
returning home. Because of the long distances our train crews 
operate, the vast majority or 60 percent of these crews, spend 
over 24 hours off at their home terminal. A third of these 
employees actually get more than 48 hours off at their home 
terminal.
    Employees in this service regularly make between $80,000 
and $100,000 a year, and for obvious reasons regarding earnings 
potential and quality of life, these long runs are preferred 
jobs that attract employees with the highest seniority. You may 
hear these employees referred to as mileage hogs, but just 
remember that they are still getting a lot of time at home. As 
FRA Administrator Boardman said earlier this afternoon, if you 
have more time off, you will get more rest.
    The remainder of our through freight employees work in 
assignments where they do not get at least 24 hours off at 
their home terminal, and we have, for all but a small 
percentage of these employees, implemented through innovative 
work agreements with the UTU and BLET work schedules that 
prescribe working seven days and then having three days off. 
These off days are not mandatory for the employee to take, but 
they are mandatory and irrevocable on behalf of management to 
allow them.
    Taking all this into account, it is important for the 
Committee to understand that only fewer than 500 of our 
employees out of our entire population of over 17,000 work 
these short crew districts with no scheduled days off. While 
they have all been offered these same scheduled rest days as 
the other crews, they have opted not to accept them.
    Since our merger in 1995, BNSF in working with the UTU and 
BLET, has had a proven track record of innovative and 
aggressive labor agreements to address these work-rest issues 
and fatigue countermeasures, and you can see these on page six 
of our deck.
    We also tried some things that didn't work, and one of them 
was to actually schedule our train crews 30 in advance with set 
days they would work and set starting times. Some of these 
pilot projects actually allowed employees to schedule their 
trips 90 days in advance. However, none of these pilot programs 
were ever ratified because they were actually not popular with 
the employees. They liked the predictability, but they still 
wanted the flexibility that the status quo offered.
    In summary, our operations are complex and to meet customer 
expectations, we have to be able to handle the variability for 
some of which we have no control. What works well in some areas 
doesn't work in others. We look forward to continued success of 
working with UTU and BLET.
    Thank you.
    Mr. Pontolillo. Good afternoon, Chairwoman Brown, Ranking 
Member Shuster and members of the Subcommittee. On behalf of 
the more than 70,000 men and women that comprise the Teamsters 
Rail Conference, I want to thank you for holding today's 
hearing and for the opportunity to present you with our views 
concerning fatigue in the industry.
    A couple of preliminary things, I also want to thank 
Brother Broken Rail. The BLET and the UTU we worked together on 
our written testimonies extensively, so we didn't cover too 
much of the same ground, and we will be splitting up the oral 
presentation as well. We also support and endorse the testimony 
of the Brotherhood of Railroad Signalman and Brother Parker 
today.
    In the brief time available to me, I would like to address 
limbo time which arose earlier today and touch on a couple of 
other factors which impact our BLET members. I also briefly 
want to comment on fatigue for our BMWED members. Maintenance 
of Way workers are not governed by Hours of Service 
requirements. Nonetheless their working conditions do create a 
certain amount of fatigue of which the Subcommittee should be 
aware, given the safety sensitive nature of their work in 
maintaining and repairing the Nation's rail infrastructure.
    I do want to start with giving you some data on limbo time 
because some of what we have collected in the past 18 months is 
absolutely shocking. One class one railroad which I will call 
Railroad A had nearly 335,000 crews that worked over 14 hours 
counting limbo time between 2001 and 2006. For the last three 
years, this railroad has averaged 205 crews a day over 14 hours 
every day. Ninety-four of those crews worked longer than 15 
hours and almost a crew a day worked over 20 hours.
    We also have over two full years worth of data covering a 
single terminal on another Class 1 railroad which I will call 
Railroad B. This is one terminal. It has two pools and one 
extra board and about 110 to 115 engineers. In the two year 
period at this one terminal, there were over 3,100 work tours 
in excess of 13 hours and over 900 in excess of 14 hours.
    We also had, for Railroad B system, two days worth of data 
from consecutive days in mid-September of last year. In those 
two days in late summer, there were over 1,000 crews that 
worked more than 14 hours and over 125 more than 15 hours. In 
that two day period, there were three shifts that were 32 hours 
long.
    Now many crews do not receive additional pay for these work 
tours. Under our National agreement, a crew in a 250 mile pool 
must accrue almost three and a half hours of limbo time before 
they are entitled to overtime. In a 325 mile pool, it must 
accrue more than eight hours of limbo time before they are 
entitled to overtime. As was previously mentioned, even while 
in limbo time, the crew is responsible for obeying operating 
rules requiring that they remain alert and observant and that 
they take any action necessary to protect the train against an 
unanticipated mechanical problem or vandalism.
    We believe that the only solution to limbo time is 
legislative.
    Railroad-imposed attendance policies also contribute to 
fatigue. Typically, these policies require an operating 
employee to work or be available for work 85 percent of the 
time or face discipline up to dismissal for a failure to do so. 
An eighty-five percent standard makes sense in a five day, 40 
hour work week, but it is absurd in a 24/7 setting like the 
railroad industry where, for example, our divorced members 
regularly must choose between visiting their children within 
limits imposed by divorce custody orders or facing discipline 
for poor attendance records.
    Another contributor is cultural change over the past 30 
years, and actually that is something that the carriers are 
victimized as much as we have been. Dual income families are 
the norm in 21st Century America, and today's railroad workers 
have far more direct domestic responsibility than their 
predecessors. But the railroad hasn't met us halfway in 
responding to these cultural changes and indeed demands more 
work from today's workforce than the past because of these 
availability policies.
    That said, both AAR and BNSF have testified concerning 
ongoing fatigue mitigation efforts, and we have all worked 
together very hard for a number of years, and they should be 
congratulated for their efforts because they have worked as 
hard as we have.
    But progress has not been consistent and has not been even 
across the industry. Railroad A, for example, that I referred 
to before is currently attempting to reduce our members' 
ability to combat fatigue. This railroad is attempting to 
eliminate freight pools and replace them with identical pools 
operating between the same terminals, but the railroad says 
that these pools are new and as a result of that, 25 year old 
agreements that permit engineers to take 24 or 36 hours rest 
when they get back to their home terminal no longer apply.
    Like the operating crafts, maintenance of way forces also 
are affected by fatigue. Causes of MW fatigue and solutions are 
very different than for operating crafts. In the MW craft, 
fatigue is most often caused by long commutes, inadequate 
overnight lodging and a lack of manpower. Over half of 
maintenance of way employees today have to travel significant 
distances just to get to work. Twenty-five to 30 percent of 
them are responsible for covering production gangs that cover 
an entire railroad system, in BNSF's case, 34,000 miles. Some 
of these people have to travel several hundred miles or a 
thousand miles just to be able to report to work.
    We believe a solution to excessive fatigue-inducing 
conditions for MW workers is to reinstate reasonable limits on 
territorial sizes that they have to cover. But those long 
commutes for maintenance of way workers combined with double 
occupancy lodging or eight to ten person camp cars which are 
decrepit and unclean also contribute to MW fatigue.
    At this time with the permission of the Chair, I would like 
to have a video played that shows the conditions facing our 
BMWED members in camp cars.
    Ms. Brown. Without objection.
    [Video played.]
    Mr. Pontolillo. I don't believe that noise is very 
conducive to restorative sleep.
    Madam Chair, the Rail Conference believes the evidence 
establishes that fatigue seriously degrades safety in the rail 
industry among all crafts. Real solutions to the problem need 
to be formulated and implemented in some cases by legislation, 
and we implore you to pass common sense legislation enabling 
the FRA to affirmatively and aggressively regulate fatigue in 
our industry.
    Thanks for hearing us, and I will be happy to answer 
questions when the time comes.
    Mr. Brunkenhoefer. James Brunkenhoefer, United 
Transportation Union. First, I would like to thank the 
Committee for the opportunity to be here today, and I also 
support the testimony of the Brotherhood of Railroad Signalmen 
and the Rail Conference of the Teamsters.
    The Hours of Service Act that was passed during your 
grandmother's day, I worked under some of the agreements. You 
had to live within a mile of the round house. The people would 
get on a bicycle, pedal to your house and wake you up. Then you 
could walk. You had to be less than a mile.
    Today in the Los Angeles basin, people who work for the 
railroads have to commute two to two and a half hours. Now they 
are not fatigued at work, but they are deadly on the 405 or the 
10 or they are deadly in New York on the I-5 as they go from 
Hobart Yard down around to 10 or 210 West to San Bernadino to 
get a train to go Barstow or Winslow, Arizona.
    So the idea of if we look at fatigue and we look at limbo 
time, we are looking at it in isolation. A person can just as 
easily have an accident on the highway, and this presents a 
public risk just like if they were on the job, a public risk. 
When we hold people in limbo time, our membership lives in a 
jet lag society. Can you imagine being in jet lag for 30 to 40 
years?
    We don't know when we are going to go to work. We don't 
know how long we will work. We don't know when we are going to 
get off, and we don't know how long we will be off. In between 
that, we are supposed to put marriages and bar mitzvahs and 
Little League and children on hold, and the result of that 
lifestyle is called divorce, called troubled children. It is 
terrible for family values. But the carriers say they need this 
in order to be able to have a demand service.
    I appreciate what the carriers are doing today. I went to 
Mr. Dealy one time that I can remember and talked to him about 
a problem involving Phoenix crews. It was taken care of, and we 
never had any other problem. There are many good ideas out 
there. Unfortunately, there is not enough of them. 
Unfortunately, I have a political organization. I can't get 
some things ratified that will save lives because, as Mr. Dealy 
said, I got mileage hogs. They passed the Hours of Service Act 
jokingly to keep them from making all the money and being on 
duty 24 hours a day.
    So as we struggle between labor and management to try to 
search for an answer, where we can't get there, we call on you. 
We call on you to do what has been requested today.
    There is only thing I have disagreed with about Mr. 
Boardman's testimony, and that is we would hate to see the act 
completely repealed. We would like to add the rulemaking to it 
because we are just afraid that the number of hours could be 
raised or the amount of rest could be reduced.
    We would like to see that it be science-based. We have 
tried to do it collective bargain-based and I believe the 
railroads have tried to do it operationally-based and sometimes 
we just can't get to where both of us need to be. They can't do 
it my way which is unreasonable, and I can't do it their way 
which is unreasonable. We would like to see it based on 
science.
    We need to have the limbo time eliminated it. Call limbo 
time what it is. You are on somebody's property. You are under 
their supervision. You are under their discipline. You can't go 
get a beer. And so, to sit down and say that you are not on 
duty, I think is a myth. When I am off duty, I am off duty. 
When I am on somebody else's property and they are in control 
of me, I am not off duty, whatever you want to call it.
    We need to address the calling time in relationship to 
fatigue. Some of our people are called multiple times and 
offered multiple jobs and woken up all hours of the day and 
night.
    We would like to have the correction to allowing sleeping 
quarters in certain railroad yards.
    We would like to have certification for conductors. We feel 
like that is needed to have qualified, trained people. A member 
of this Committee, I think became aware of our communication 
problems. July the 27th at this table, Mr. Hamberger, Mr. Stem 
and Mr. Boardman all said that we probably need to do something 
about training. I left this committee room and called the 
President of my union and said gee, we have got something on 
training. We can move forward.
    And he said, well, I just met with Mr. Bob Allen in Chicago 
to try to handle it through contract negotiations, and the 
nicest words I can say is he demurred.
    How do we get a deal? We have an instance of where in the 
State of Illinois where a piece of legislation passed through 
the House unanimously. The railroads had concerns about the 
penalty portion. Rail labor, rail management and the people 
from the Assembly met and corrected the language. The bill 
passed the Senate and because we had an agreement between rail 
labor, rail management and government, we thought it was over. 
God Bless their legislative people that are like Mr. Hamberger 
and those here. Somebody forget to tell the legal department. 
So the rail sued in Federal court to overturn their own 
language and were successful.
    I have in front of me what we call Letter 2 out of the last 
National contract. It says: This confirms our understanding 
with respect to Article 4, Service Skills, Document A agreement 
of this date. The parties agree to the earliest opportunity. In 
the next National round bargaining round, the matter relating 
to existing service scales in effect on each participating road 
to training and experience shall be addressed.
    That is 2002. I have been in negotiations two years. We 
haven't quite got around to talk to that. Now it says it is the 
first thing we are going to talk about. Well, we talked about 
health and welfare, and we talked about one person train crews, 
and we talked about a lot of other things. At what point can my 
partner and I sit down and make a deal that is a deal?
    When we reach out with our hands and shake hands, I believe 
the person I am shaking hands with I can trust. Unfortunately, 
some of the times within a major corporation, those people in 
other departments don't recognize or appreciate all that went 
into make that partnership, whether it is the legal department, 
whether it is the labor negotiations department or other 
people. It is very difficult for us to sit here and say, gee, 
we are really open to being disappointed again.
    So as we move forward dealing with fatigue and we move 
forward dealing with safety overall, we are open. We are ready, 
but we need your help. We can't get there by ourselves. We have 
tried. There has been progress, and Mr. Dealy has done some 
wonderful things on his railroad, but we can't get to the 
solutions, I believe, to protect both our members and the 
public.
    Thank you.
    Mr. Parker. Thank you, Madam Chair, Mr. Shuster, members of 
the Subcommittee. On behalf of my International President, Dan 
Pickett, it is an honor for me to testify on fatigue in the 
rail industry.
    I am the Legislative Director for the Brotherhood of 
Railroad Signalmen and also have 34 years of rail service. We 
support the testimony from my brothers at the table.
    Our lives depend on qualified trainmen. Signalmen install, 
maintain and repair the signal system that railroads utilize to 
direct train movements. Signalmen also install and maintain the 
grade crossing signal systems used at highway railroad 
intersections which play a vital role in ensuring the safety of 
highway travelers.
    The rail industry is moving more freight today than ever 
before with fewer employees. This is a critical point that must 
be acknowledged. Through mergers and the railroads' quest to 
eliminate workers, railroad staffing levels are at an all time 
low. In the past years, those numbers have increased as the 
railroads need to train new people to fill the increased 
vacancies as a result of baby boomers retiring. This trend of 
retirees outnumbering new hires is expected to continue for the 
next 10 years.
    As a result, current railroad workers are working longer 
hours. A 12 to 16 hour day is not unusual for railroad workers 
and in many cases it is the norm. The railroads are abusing 
their most important resource, railroad workers.
    The BRS seeks to amend the Hours of Service Act for 
signalmen by eliminating the four hour emergency provision due 
to its abuse by the railroads. The Hours of Service Act allows 
individuals performing signal work to work 12 hours in a 24 
hour period with an emergency clause provision calling for an 
additional four hours of service in a 24 hour period. When the 
act was expanded to include signalmen, it was intended to a 12 
hour law.
    This is how the railroads originally applied the law. If a 
signal employee needed additional time to correct a signal 
problem, he would inform his lower level supervisors of the 12 
hour limit. The supervisor would determine if the employee 
could finish the work within 12 hours or if another signalman 
employee could be called to finish the repair work. This worked 
for years.
    However, through gradual creep, railroads have mutated the 
act into a 16 hour law. Many railroads now consider any signal 
problem an emergency. Signal employees are routinely instructed 
to work the 16 hour limit. Many railroads authorize outright 
violations of the act by ordering signalmen employees to 
continue working until repair work is completed. That is why it 
is up to Congress to remove the four hour emergency provision. 
This discretion combined with the railroads' tendency to push 
the limits of the law has morphed the act and is contrary to 
the intentions of the 1976 Congress.
    Of greater concern is when a BRS member can work 20 hours 
in a 24 hour period without adequate rest. The cumulative 
effect of the law on the individual is that he is allowed to 
work a total of 20 hours of service within a 32 hour period. 
While the employee has had 12 hours off, he has gotten 
virtually no sleep.
    This situation is exasperated further when railroads 
require signalmen personnel to work an additional four hours 
under the emergency provision. If an emergency occurs at the 
end of his shift, the railroad will require him to work an 
additional four hours. The cumulative effect of the law on the 
individual would now be that he is allowed to work a total of 
24 hours of service within a 40 hour period with virtually no 
sleep. This type of work schedule is a recipe for disaster.
    The BRS asks that the Hours of Service Act be amended to 
require that employees performing signal work receive at least 
eight hours of extra rest during a 24 hour period. Our request 
is due to the fact that many of the railroads willfully abuse 
the act. For example, when the railroad receives emergency 
calls prior to the end of eight hours of required rest, they 
will delay calling signal personnel until eight hours have 
passed since the end of their scheduled shift.
    Chairman Oberstar has gone on record, calling for 
legislation that strengthens the act, stating: I believe that 
the safety of railroad workers and the safety of the general 
public which all too often are the victims in these train 
accidents should not be relegated to a negotiation between 
management and labor. This Congress has a responsibility to 
prevent fatigue.
    Madam Chair, I could not agree more with Chairman Oberstar. 
The railroads have manipulated the 12 hour Congressional Hours 
of Service Act into a 16 hour law.
    The situation is even worse in the industry than what I 
have explained so far. The BRS is currently engaged in National 
negotiations with the railroads. The railroads want work 
provisions that allow them to subcontract out safety-sensitive 
signal work to the lowest bidder. The reason for that is 
contractors are not covered under the Hours of Service Act.
    Madam Chair, an adequately staffed signal department with 
well trained and well rested signalmen is needed to make the 
critical safety-sensitive decisions that are routinely part of 
our daily duties. Signalmen employees often work alone in the 
worst weather conditions and some of the most demanding 
terrain, and it is imperative that these workers have the 
opportunity to perform their duties after receiving adequate 
rest.
    There is much to accomplish to eliminate fatigue for rail 
signalmen and the rail industry as a whole in order to make the 
Nation's railroads safer for communities across the Country and 
rail workers. Experience teaches us that it is Congress, that 
it is Congress, that it is Congress that must provide the 
leadership to make safety a reality. I hope we can work 
together to see that improved safety practices become a 
reality.
    On behalf of rail labor and the Brotherhood of Railroad 
Signalmen, I appreciate the opportunity to testify before this 
Committee. Thank you.
    Ms. Brown. Thank you and thank everyone for their 
testimony.
    Let me just say before I begin with my questioning, to a 
person, I feel very strongly that we would like for, and maybe 
I am meddling at this point, but we would like to see an 
agreement between the rail and labor. I don't know what you do. 
You go into a room, you lock the door and failure is not an 
option. We don't really want to deal with that up here. I am 
telling you. We would like for you all to come up with an 
agreement, and some of the issues that I hear you discuss are 
things that you need to resolve.
    Now I know all about signalmen. My brother is one for over 
30 years. You have got a rock in a hard place. They want more 
time, they want more flexibility, but they like the money. They 
want the hours. So you have got to work with them and you have 
got to work many of these issues.
    You all are very close to coming up with an agreement. I 
think maybe the last meeting you had was in Las Vegas. Maybe 
you need to go somewhere up here where is rainy and snowy and 
not a wonderful place to be and lock the door.
    With that, I will get into questions.
    Mr. Shuster. Would you yield?
    Ms. Brown. Yes, sir. Yes, sir.
    Mr. Shuster. I couldn't agree with the Chairwoman more. The 
last thing I think you said was you were meddling. I think that 
is what they are inviting us to do, and I think that is the 
last thing you want is for the Federal Government because it 
has been my experience the Federal Government is going to just 
screw things up worse.
    So I couldn't agree with the Chairwoman more. Come to an 
agreement amongst yourselves and don't have us interject. I 
think it is going to be terrible for everybody, not only bad 
for you folks in the rail industry but bad for the American 
people. It is going to mean that we are not going to get 
shipments on time or get the goods to market.
    I couldn't agree with the Chairwoman. Go lock yourself in a 
room somewhere there is no golf, no beer and no TV and force 
yourselves to work that agreement.
    Ms. Brown. No sunshine.
    Mr. Shuster. I better stop there or we are going to get in 
trouble.
    I thank you for yielding.
    Mr. Brunkenhoefer. In other words, you don't want us to go 
to Jacksonville in your district. You would prefer that we went 
up to Mr. Oberstar's district.
    Mr. Shuster. I could find a place for you in Central 
Pennsylvania that there is not much fun going on.
    Ms. Brown. Anyway, one of the things, the camp cars that 
you showed us in the video, my understanding, Mr. Hamberger, is 
only one railroad continues to use that.
    Mr. Dealy, I don't understand. It looks like slave quarters 
to me. I hate to use such a strong term. Why is it that is the 
only railroad that is still using those camp cars?
    Mr. Hamberger. It is my understanding that your 
understanding is correct, that is, that it is one railroad only 
still using the camp cars. Further, it is my understanding that 
they are in the process of transitioning out of those camp cars 
over time and they will be providing housing in hotels or 
motels consistent with labor agreements.
    Ms. Brown. Like most of the railroads, is that correct?
    Mr. Hamberger. Like all the other Class 1s do, that is 
correct. But I will reiterate what I mentioned last week. There 
are FRA standards, and I would hope that if that camp cars were 
not in accord the FRA standards, that would have been reported 
to the FRA.
    Ms. Brown. There has been a lot of discussion about limbo 
time. Is this something that is paid for?
    Explain to me because my understanding in talking to the 
workers, some of it is maybe manageable and some of it can run 
up to five or twelve hours. While they are there, they have to 
be alert and to be vigil, and so they are really still working.
    Mr. Dealy. I will take that one, first, Chairwoman Brown.
    Ms. Brown. OK, yes, sir.
    Mr. Dealy. One, they are paid. Two, they are not required 
to perform duties. Three, from a management perspective, 
speaking for BNSF and I set the policy, if we know a train crew 
is not going to make their destination and we know they are not 
going to make their destination, it is our policy to get them 
off the train and to their tie-up point within 12 hours.
    Now there are a lot of times where things happen. In 
Congressman Lipinski's territory, I will talk about two brief 
cases here. One of them was in his district over the last two 
days. In Lisle, Illinois, we had a trespasser, not at a road 
crossing, step in front of one of our trains and was killed. 
That shut the railroad down for about five or six hours, and 
that happened all of sudden, unpreventable, unforeseeable. We 
reacted to it as quick as we can. We had crews on duty that 
couldn't get into Chicago because all the routes were closed, 
and we couldn't get them off the train quick enough because we 
couldn't get to them in traffic. There are situations like 
that.
    I had one in northern California yesterday. A crew was on a 
train for 18 hours. That is unconscionable. But they were in 
the Feather River Canyon, a rockslide came down, and we got to 
them as quick as we could, and believe me, it was as quick as 
we could.
    So limbo time comes in a couple of different shapes and 
sizes. The most heinous of them all is when we know a train 
crew is not going to make their destination and we don't get 
them off their train. We are solidly, from a policy 
perspective, in agreement that that is not the right thing to 
do and we need to get them off the train. But we don't require 
employees to do any work while they are on the train after 12 
hours.
    Ms. Brown. Would you say that this is how the emergency 
time is being used?
    Mr. Dealy. I am sorry. I don't understand.
    Ms. Brown. The emergency time, for example, the two areas 
that you just mentioned.
    Mr. Dealy. Right, they would be under emergency, yes, 
ma'am.
    Ms. Brown. I would consider that an emergency.
    Mr. Dealy. There is also one other issue in emergency now. 
There is a service law and it generally comes in snowstorms 
where we actually would have a crew work over the 12 hour law 
and then file that as a known violation-exception to the FRA, 
that is was safer to work them over to get them into a point 
where we could get to them rather than let them sit in the 
snowstorm just because the 12 hour law had hit them.
    Ms. Brown. I would like labor to respond.
    Mr. Pontolillo. Briefly, Madam Chair, thank you.
    With respect to the camp cars, what FRA has published 
actually are guidelines, not enforceable regulations where 
there is any sort of penalty if a railroad like the NS did not 
meet those standards. There are merely guidelines.
    On the question of limbo time, Mr. Dealy makes a very good 
point. Our system operates 24/7 in all sorts of climate, in all 
sorts of weather, expected and unexpected, and there are 
situations. I had, I guess, after I had worked about five or 
six years, I was in a situation where I was told in the middle 
of a snowstorm, you have to violate the Hours of Service. That 
is really not what we are talking about here, but it is more 
the systemic type of issues.
    Railroad A that I mentioned before, which is not BNSF, 
334,000 incidents over a six year period is just more than 
unexpected weather.
    Briefly, also on the pay issue, it is not as simple as the 
industry suggests. Under the National agreement, you get paid 
the miles of the run. If you are on a 325 mile run and you do 
that in 9 hours, you make the same amount of money as you do if 
you outlaw on the line of road and then it takes another 8 
hours of limbo time to get you back in. You get the pay for the 
mileage regardless of how, and then you only get additional pay 
or overtime depending on the length of the run and how long it 
takes you to work out the over miles. On a 325 mile run, you do 
not go on overtime until after 20 hours. So the crews aren't 
losing money out there, but they are sitting there basically 
for nothing until the mileage runs out. Now that is in the 
national agreement.
    It is true that in the last several years, there have been 
some local agreements and there are some system agreements 
where in limbo time situations, the crew will begin to receive 
additional pay. I believe that sort of financial incentive 
probably does help reduce the limbo pay situation if it could 
be straightened out at the table. I agree with you, Ms. Brown 
and Mr. Shuster. Unfortunately, the management guy you would 
have to lock up is not on this panel today in order to get that 
deal done.
    Mr. Parker. Madam Chairwoman, I would like to speak.
    Ms. Brown. I think you are getting the message.
    Mr. Parker. I would like to speak on the emergency time. 
There are devastating times for signalmen when maintenance away 
production gang come and we spend days and days and days at a 
time. There are some employees where there is a problem with 
overtime. When it comes to situations like that, when it comes 
to rest and overtime, rest takes precedence.
    There are times when you are working a signal circuit, and 
your time is gone, and the railroads will say, that signal 
circuit is causing the crossing gate to go down, so now we 
declare this an emergency for protection of the public.
    As we stated in our testimony, the railroads will use any 
circumstance and situation to make us work past our 12 hour 
period. It is devastating. Anytime they want to call it an 
emergency or tell us to work past the Hours of Service Law, 
they do that.
    Ms. Brown. Mr. Parker, are they paid for the overtime?
    Mr. Parker. Yes, they are paid for the overtime, but the 
problem is they need more employees to fulfill some of that, 
some of that time. There are some people who all their time is 
spent on the railroad.
    Ms. Brown. The question about the camp car video, can labor 
respond to that? Is this being negotiated?
    Mr. Pontolillo. I believe that the BMWED has attempted on 
numerous occasions to negotiate it with Norfolk Southern. I 
can't speak personally. We can supply greater details, but if 
it is similar to many other rail union negotiations, NS is 
probably looking for something in return.
    Ms. Brown. Well, Mr. Hamberger, you will give us that 
response in writing.
    Mr. Hamberger. Yes, ma'am.
    Ms. Brown. Mr. Shuster?
    Mr. Shuster. Thank you.
    I can go back to the last hearing we had, and I will keep 
saying this over and over again. I am trying to get my hands 
around and my brain around all these issues. For me, it is 
extremely important to have some points of reference, and those 
become the statistics. I was told and I am aware you can make 
the statistics move a little bit, but if I can see how you got 
your statistics, I can figure out how you moved them or what 
you did. I need that kind of information.
    Mr. Pontolillo, did I pronounce that correctly?
    Mr. Pontolillo. Yes, sir.
    Mr. Shuster. The numbers that you put forward, they sound 
like big numbers to me, but I have no point of reference so I 
am not sure. Mr. Hamberger in the rail industry comes up here 
and says that 83 percent of the rail workers are on duty less 
than 200 hours per month and 95 percent or less are under 250 
hours per month. Now I can dive into the numbers and figure out 
how he got it.
    If you folks in labor, can give me those kind of numbers so 
I can handle it better, it will help me as we move forward.
    I agree with the Chairwoman, I hope we don't have to do 
anything on this because I think it would be much better served 
if you did it. So that is something that I need coming from you 
folks.
    A question I have about the declaration of emergencies, I 
understand Mr. Parker brought that up and that has been on the 
increase. Whoever wants to take it first, management or labor, 
tell me about it. Has there been an increase in emergencies, 
declaration of emergencies, and why do those occur?
    Mr. Hamberger. I am not sure I can answer the delta over 
time, but we have done a little research on the number of such 
declarations in talking to the railroads. If a signalmen has to 
work more than 12 hours, that has to be filed with the FRA. So 
there is a repository at the FRA that keeps track of the number 
of times that a person is asked to exceed the 12 hours of all 
the crew tours of duty, if you will, that are out there.
    I know for a fact with Mr. Dealy's railroad, that number in 
2006 was .08 percent--.08 percent of the number of times a BRS 
person went out to work that they were asked to spend more than 
12 hours. It is my belief and understanding and we will get 
those data for you, that the other railroads are all less than 
1 percent as well. So I don't see that as the widespread abuse 
of the emergency.
    If I could just make one further point, I am sorry Mr. Kuhl 
left because his area in New York just got 10 feet of snow, and 
certainly that is going to demand a lot of checking of grade 
crossings and a lot of work on signal work and you can't staff 
up to have people sitting around waiting for a 10 foot 
snowstorm however many years they come. Mr. Parker referenced 
the negotiations about contracting out, and certainly that is 
one of the reasons that we need to have that authority, so that 
you can put the resources when there is a disaster like that 
and a need, that you can put more resources out there. Anyway, 
that is one of the issues that is begin dealt with at the 
bargaining table.
    Mr. Shuster. Has then been more, a greater number of 
declarations of emergencies over the past? Is that what you 
said?
    Mr. Hamberger. I don't have that information. All I know is 
the real number is that it is less than 1 percent for the Class 
1s and I just happen to know Mr. Dealy's is .08 percent. 
Whether or not that is more than the past, I don't know, but 
just as a real number, it seems to me to not be a crisis if it 
is less than 1 percent.
    Mr. Shuster. One percent, I must have misunderstood you.
    Mr. Hamberger. So you take a look at all of the shifts that 
a BRS employee works. Of all those shifts over the course of a 
year, how many times were they asked to work more than 12 
hours? They have to be reported to the FRA if they are.
    Mr. Shuster. Less than 1 percent?
    Mr. Hamberger. Less than 1 percent.
    Mr. Shuster. Mr. Parker?
    Mr. Parker. The problem is it is not defined in the act. 
Any supervisor on the railroad track can say that this is an 
emergency, and a signal employee has no other alternative but 
to do exactly what he says. They also know how to manipulate 
the time of the signalmen. You go sit over here for a while. 
You go do this. You go do that.
    Depending on the individual, the problem is not a need of 
contract. The problem is a need of more employees. We have had 
a shortage of employees for a long time. Territories have been 
increased, more responsibility, more testing, more things to 
do. It is something that the railroads could do something 
about.
    If it is an emergency, if it is a snowstorm, if it is a 
fire, if it is an icestorm, we understand that. That is an act 
of God. We understand that is an emergency. That is not what w 
are talking about. We are talking about when a lower line 
supervisors or a vice president declares an emergency just to 
keep you out there rather than call somebody else just to keep 
you out there so he can have somebody available for the next 
day.
    We need a definition. I am telling you it is devastating to 
us for 20 years,30 years, five year employees. We have to do 
what we are told. What is the word they use for when you have 
no protection for reporting incidents? Whistleblower. We have 
no whistleblower protections on the railroad. It is just 
devastating for the things we have to do in the name of so-
called emergency.
    Mr. Shuster. I see my time has expired. I yield back.
    Ms. Brown. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Madam Chair.
    On that point, Mr. Parker, I have discussed with the Chair 
the possibility of adding some kind of protection to 
whistleblowers because that seems to be an issue that keeps 
coming up again and again, that there is no provision. There is 
no safety for those employees who are trying to protect not 
only the infrastructure of the railroad but their own safety 
and safety of those areas where they go through. So that is a 
good point.
    There are many, many questions, and most of you already 
probably have heard me talk over and over again. L.A., the 
biggest sample, we are going to be increasing rail traffic 
through my whole district six to tenfold. You talk about a 
train every six to ten minutes. I want to be assured that 
whatever railroad, be it UP or BNSF, going through my district, 
the rest of the district, the rest of California too, is not 
only trained, experienced, not tired, not fatigued because that 
has seemed to be a big player in some of the accidents that I 
have heard about.
    Now I am not sure. You have told me you have enough trained 
employees, and yet I hear time and again that you do not have 
enough trained personnel, adequately trained personnel. I 
certainly would want some of the organizations to tell us what 
about the training the employees are receiving. Is it adequate? 
Are there questions in regard to the length of time, to the 
type or methodology rather used?
    What is it that we can ask that be given to all employees 
to protect them and the rail cars and the public?
    Mr. Parker. We signed an agreement with one railroad five 
years ago, six years ago, ten years ago to have advanced 
training. It has never happened. Sometimes the training is a 
film. The majority of the time, the training is from an older 
maintainer. A lot of the older maintainers are gone from the 
experience. You would just be surprised at the lack of training 
that we have.
    Mrs. Napolitano. No, I wouldn't because I have heard about 
it.
    Mr. Parker. OK. I had an old maintainer when I began as a 
signal maintainer, and there was no training as a signal 
maintainer at the beginning. You went to school eventually but 
not for long, and the school was set up not for training, for 
testing, probably to get rid of some people.
    He taught me to survive. He said do this, do that, do that, 
so this switch can go. I learned how. I learned to survive. He 
taught me to survive until I learned exactly what I was doing. 
Without the expertise of the older fellows, the railroads have 
no desire, speaking of my own experience and some of the 
others. They just don't believe in training for signals.
    We have vital circuits. It is just so vital. The nightmare 
that the signal maintainers have to go through, knowing there 
is some lack of knowledge. Sometimes with the new crossing 
systems that come in, they may bring a salesman to teach you, 
but they just do not invest in proper training for the 
signalmen.
    Mrs. Napolitano. Would it be more appropriately called on 
the job training?
    Mr. Parker. On the job training if you have someone there 
who has the experience to give you on the job training, but we 
need them to fulfill their agreement with advanced training.
    Mrs. Napolitano. Yes?
    Mr. Brunkenhoefer. Mrs. Napolitano, the Federal Government 
has regulations on all of us. In the last round of the safety 
bill, we did drug testing which has turned out to be good--we 
need to work on that together some more--and we have what is 
known as personal liability. I have a responsibility to comply 
with a Federal regulation or if I don't comply with that 
Federal regulation, I can be fined or removed, banned from the 
industry.
    In our wish list, we would like that the Federal Railroad 
Administration would set training standards for both labor and 
management so that we would make sure that we are being 
adequately trained to comply with the Federal regulations to 
protect ourselves and protect our public.
    Mrs. Napolitano. Thank you.
    One of the things, and I am almost out of time, is the cost 
to the industry gentleman. Mr. Hamberger, while in California, 
the only way I can bring the railroad to comply with some of my 
community's requests to do certain things in their own back 
yard is by going to the FPPC, the State regulatory, to do fines 
on them. Is there another way that we may be able to get better 
compliance?
    I know that I had one representative for one railroad for 
the whole West Coast including Hawaii, and when I called, he 
was either not available or was very not understanding is 
putting it mildly. I certainly would want those that have 
requests to make that would help bring compliance to the 
community's request or at least addressing the issues to be 
able to help address some of the issues that have been brought 
up today.
    Mr. Hamberger. Probably a long answer, I have a request in 
to meet with you. I would like to be able to come in and, with 
the railroads, BNSF and UP, and talk through some of the 
specifics you have voiced in the last couple of hearings, that 
I would like to get a little more detailed understanding so we 
can make sure we can respond properly.
    Mrs. Napolitano. The last question, you can answer it, is 
because you have had some findings from the research that was 
done over fatigue. Have you reviewed them? Have you found out 
whether some of them can be implemented? What about some of the 
work that should be done?
    Mr. Hamberger. Mr. Dealy is in charge of doing that.
    Mr. Dealy. Sure, I think some of it points to earlier 
testimony, but it really does come back down to looking at the 
modeling that the two individuals talked about in the panel 
ahead of us. I think it directly applies on the small group of 
employees that I referred to that do work a lot, and we would 
just as soon they take days off. We would be all in favor if 
there was mandatory off time for those, and we think it does 
fit the modeling that Dr. Sherry and Dr. Hursh have done.
    If I could just touch on the question you said earlier 
because you asked a good question. One, do you have enough 
people and, two, are they adequate trained?
    Right now I am surplus 100 people. I know my counterpart 
with Union Pacific because both of us operate through your 
district, we both have a surplus of employees. Two, we have 
worked with the unions in the last two months to keep them on 
the payroll even though economics probably would dictate we 
furlough them. So we have worked through some innovative ways 
to keep them around, so they can continue to get training. Then 
thirdly, both the training program for our conductors and for 
our engineers are by agreement with the UTU and the BLE and 
actually the UTU training agreement also applies for a UTU 
coordinator on each seniority district to supervise the 
training.
    Mrs. Napolitano. Sir, after 9/11, a lot of the personnel 
was deleted. Are you comparing the statistics after 9/11 or 
before 9/11 where you had full complement and you did not fill 
all of those positions?
    Secondly, as we have heard the testimony, you are utilizing 
less and less personnel on the trains themselves.
    Mr. Dealy. Well, before and after 9/11, we had two men, two 
person train crews, conductor and engineer, so that really 
didn't change.
    Two, I am talking current state when I said we have plenty 
of people right now. We still plan to hire this year. We all 
know the pain of running short of employees. That is not a good 
thing, and we all have intentions of staying ahead of this. We 
have it in our business plan to stay ahead of it with really 
still aggressive hiring programs, and we will still hire at 
BNSF in the neighborhood of 1,500 employees this year even 
though right now I have got 1,000 surplus. We know that because 
we have a good idea of what the retirements are going to be, 
and we think we understand what the growth rate is going to be, 
particularly out of southern California this year.
    Mrs. Napolitano. I am sorry. There is apparently a response 
to that.
    Mr. Brunkenhoefer. Railway Age off the web site, February 
the 7th, between mid-December, 2005 and mid-December, 2006, 
Class 1 employment in railroads increased 1.63 percent to a 
total of 167,558 according to Surface Transportation, where the 
largest employee group was transportation train engineers which 
rose to 75,815 during the period, an increase of 3.10 percent. 
The second largest group was the maintenance away structures 
decreased 1 percent to 34,000. They were laying them off.
    The biggest percentage increase was the category of 
executives, officials, staff assistants whose numbers increased 
6.37 percent to 10,148. So, yes, they are hiring.
    But are they hiring at the rate, one, that business is 
growing? God bless Dave and the sales department that got 
business growing. Are they hiring fast enough to cover the 
business that is growing and retirements?
    I would say that if I am understanding correctly, recent 
growth in business has been at the double digit level for the 
last several years. God bless them. But at the same time, the 
overall hiring numbers, at least according to the numbers 
quoted by the Surface Transportation Board, do not reflect that 
other than we are getting a lot more supervision. For every one 
employee in the category of operating the trains, we are 
getting two supervisors hired.
    Mrs. Napolitano. Thank you, sir, and thank you for your 
indulgence, Madam Chair.
    Ms. Brown. I am going to go to Mr. Lipinski for the last 
question, but let me just ask you quickly.
    I went to the training program that CSX had, Mr. 
Brunkenhoefer, in Atlanta, and my understanding is they are 
training 24 hours. In some of the I guess railroads, they are 
training as many as they can accommodate. This is a good 
problem for the industry, and I think maybe we need additional 
training programs for people that have been there. Maybe it 
took a five man crew and they actually didn't run the train 
until after they had been there for a number of years, by 
themselves. I guess with the technology, the industry has 
changed.
    Mr. Brunkenhoefer. Ms. Brown, put me down in the Amen 
corner down at the AME at 11:00 on a Sunday morning. I am in 
agreement with you. I would just like somebody like the FRA to 
set some standards to make sure that everybody gets quality 
training because the trains that they handle are all the same 
all over the United States. And so, all we want is if somebody 
has got something good, let us apply it everywhere.
    Ms. Brown. Help me now. The trains may all be the same, but 
the conditions are not always the same.
    Mr. Brunkenhoefer. Amen.
    Ms. Brown. All right, Mr. Lipinski?
    Mr. Shuster. Thank you, Madam Chairwoman.
    I just want to point out one thing. I just want to tell Mr. 
Brunkenhoefer, who I normally call Broken Rail but I wasn't 
sure. This is the first time in this formal surrounding that I 
addressed you.
    Mr. Brunkenhoefer. I hope you forgive me for not wearing my 
jacket.
    Mr. Shuster. That is perfectly all right, but I knew you 
knew what statistics were.
    Mr. Brunkenhoefer. Thanks very much.
    Mr. Lipinski. I just heard you fire off several of them, so 
I appreciate that.
    Ms. Brown. Mr. Lipinski?
    Mr. Lipinski. Thank you, Madam Chairwoman. I get to go 
clean-up, otherwise known as last, and I know everyone is ready 
to get out of here. A couple things I just want to mention here 
a little bit.
    Mr. Dealy, I don't know. I may have misunderstood you. I 
just want to make clear that this tragedy that occurred was in 
Berwyn that happened yesterday. I wasn't sure if that was what 
you had said, but I didn't want to interrupt you.
    Mr. Dealy. I stand corrected, Congressman. Thank you.
    Mr. Lipinski. The issue of the camp cars is something that 
certainly has been brought to my attention many times, and 
certainly seeing this video makes it very clear what a terrible 
situation. I just imagine trying to get sleep in there. I just 
want to make sure that we do get that cleared up about what is 
going on, if this is something that, as Mr. Hamberger said, NS 
is going to end. I just want to make sure.
    Mr. Hamberger. I don't want to overstate that. It is my 
understanding they are in a transition phase, but I do know, as 
Mr. Pontolillo indicated, they are in discussions with the 
unions on that exact path. So I don't want to say that it is 
over, but I think they are discussing it with the unions.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] 34779.008
    
    Mr. Pontolillo. We will supplement our response and let you 
know exactly what our people are telling us. Thank you.
    Mr. Lipinski. I thank you.
    Mr. Broken Rail, I will go ahead and use that, although it 
is a simple German name there that we could probably really 
pronounce, but I guess this works well.
    I just want to make sure. I heard this now brought up a 
couple of times about this issue in Illinois. We are working on 
getting that straightened out, aren't we?
    Mr. Brunkenhoefer. I expect that Mr. Szabo who is our State 
Director will be making a request to that particular. This is a 
problem when you win a lawsuit that says it is federally 
preempted. Now it looks like we are going to have to come to 
you and this Committee and ask that we have a Federal law to 
solve the problem in Illinois.
    It is not a problem just in Illinois, but we were trying to 
address this at the State level. We thought we had successfully 
done it. Unfortunately, we misunderstood. We thought a deal was 
a deal, and so we will be approaching this Committee to add 
language to the safety bill to address it.
    Mr. Lipinski. I have spoken with Mr. Szabo. I know that 
others have also and Chairman Costello has, it being an issue 
directly with Illinois although, as you say, it also applies 
elsewhere. Every week, well, the last two weeks, I have heard 
about this issue regarding Illinois, so I will have to work on 
that.
    That is all. I yield back, Madam Chairwoman.
    Ms. Brown. Mr. Shuster?
    Mr. Shuster. I just want to congratulate you in your 
judgment today, Madam Chair. Where everybody else left in the 
Federal Government at 2:00, those of you who are going to leave 
at 5:00 are not going to have the traffic to deal with tonight. 
So you can all thank the Chairwoman for her great insight into 
that.
    Mr. Pontolillo. We appreciate that very much too.
    Ms. Brown. I hope we don't have ice.
    Let me just thank the witnesses for their valuable 
testimony and the members for their questions.
    Again, the members of the Subcommittee may have some 
additional questions. I know I do. I am going to put them in 
writing.
    With that, this hearing is adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 34779.009
    
    [GRAPHIC] [TIFF OMITTED] 34779.010
    
    [GRAPHIC] [TIFF OMITTED] 34779.011
    
    [GRAPHIC] [TIFF OMITTED] 34779.012
    
    [GRAPHIC] [TIFF OMITTED] 34779.013
    
    [GRAPHIC] [TIFF OMITTED] 34779.014
    
    [GRAPHIC] [TIFF OMITTED] 34779.015
    
    [GRAPHIC] [TIFF OMITTED] 34779.016
    
    [GRAPHIC] [TIFF OMITTED] 34779.017
    
    [GRAPHIC] [TIFF OMITTED] 34779.018
    
    [GRAPHIC] [TIFF OMITTED] 34779.019
    
    [GRAPHIC] [TIFF OMITTED] 34779.020
    
    [GRAPHIC] [TIFF OMITTED] 34779.021
    
    [GRAPHIC] [TIFF OMITTED] 34779.022
    
    [GRAPHIC] [TIFF OMITTED] 34779.023
    
    [GRAPHIC] [TIFF OMITTED] 34779.024
    
    [GRAPHIC] [TIFF OMITTED] 34779.025
    
    [GRAPHIC] [TIFF OMITTED] 34779.026
    
    [GRAPHIC] [TIFF OMITTED] 34779.027
    
    [GRAPHIC] [TIFF OMITTED] 34779.028
    
    [GRAPHIC] [TIFF OMITTED] 34779.029
    
    [GRAPHIC] [TIFF OMITTED] 34779.030
    
    [GRAPHIC] [TIFF OMITTED] 34779.031
    
    [GRAPHIC] [TIFF OMITTED] 34779.032
    
    [GRAPHIC] [TIFF OMITTED] 34779.033
    
    [GRAPHIC] [TIFF OMITTED] 34779.034
    
    [GRAPHIC] [TIFF OMITTED] 34779.035
    
    [GRAPHIC] [TIFF OMITTED] 34779.036
    
    [GRAPHIC] [TIFF OMITTED] 34779.037
    
    [GRAPHIC] [TIFF OMITTED] 34779.038
    
    [GRAPHIC] [TIFF OMITTED] 34779.039
    
    [GRAPHIC] [TIFF OMITTED] 34779.040
    
    [GRAPHIC] [TIFF OMITTED] 34779.041
    
    [GRAPHIC] [TIFF OMITTED] 34779.042
    
    [GRAPHIC] [TIFF OMITTED] 34779.043
    
    [GRAPHIC] [TIFF OMITTED] 34779.044
    
    [GRAPHIC] [TIFF OMITTED] 34779.045
    
    [GRAPHIC] [TIFF OMITTED] 34779.046
    
    [GRAPHIC] [TIFF OMITTED] 34779.047
    
    [GRAPHIC] [TIFF OMITTED] 34779.048
    
    [GRAPHIC] [TIFF OMITTED] 34779.049
    
    [GRAPHIC] [TIFF OMITTED] 34779.050
    
    [GRAPHIC] [TIFF OMITTED] 34779.051
    
    [GRAPHIC] [TIFF OMITTED] 34779.052
    
    [GRAPHIC] [TIFF OMITTED] 34779.053
    
    [GRAPHIC] [TIFF OMITTED] 34779.054
    
    [GRAPHIC] [TIFF OMITTED] 34779.055
    
    [GRAPHIC] [TIFF OMITTED] 34779.056
    
    [GRAPHIC] [TIFF OMITTED] 34779.057
    
    [GRAPHIC] [TIFF OMITTED] 34779.058
    
    [GRAPHIC] [TIFF OMITTED] 34779.059
    
    [GRAPHIC] [TIFF OMITTED] 34779.060
    
    [GRAPHIC] [TIFF OMITTED] 34779.061
    
    [GRAPHIC] [TIFF OMITTED] 34779.062
    
    [GRAPHIC] [TIFF OMITTED] 34779.063
    
    [GRAPHIC] [TIFF OMITTED] 34779.064
    
    [GRAPHIC] [TIFF OMITTED] 34779.065
    
    [GRAPHIC] [TIFF OMITTED] 34779.066
    
    [GRAPHIC] [TIFF OMITTED] 34779.067
    
    [GRAPHIC] [TIFF OMITTED] 34779.068
    
    [GRAPHIC] [TIFF OMITTED] 34779.069
    
    [GRAPHIC] [TIFF OMITTED] 34779.070
    
    [GRAPHIC] [TIFF OMITTED] 34779.071
    
    [GRAPHIC] [TIFF OMITTED] 34779.072
    
    [GRAPHIC] [TIFF OMITTED] 34779.073
    
    [GRAPHIC] [TIFF OMITTED] 34779.074
    
    [GRAPHIC] [TIFF OMITTED] 34779.075
    
    [GRAPHIC] [TIFF OMITTED] 34779.076
    
    [GRAPHIC] [TIFF OMITTED] 34779.077
    
    [GRAPHIC] [TIFF OMITTED] 34779.078
    
    [GRAPHIC] [TIFF OMITTED] 34779.079
    
    [GRAPHIC] [TIFF OMITTED] 34779.080
    
    [GRAPHIC] [TIFF OMITTED] 34779.081
    
    [GRAPHIC] [TIFF OMITTED] 34779.082
    
    [GRAPHIC] [TIFF OMITTED] 34779.083
    
    [GRAPHIC] [TIFF OMITTED] 34779.084
    
    [GRAPHIC] [TIFF OMITTED] 34779.085
    
    [GRAPHIC] [TIFF OMITTED] 34779.086
    
    [GRAPHIC] [TIFF OMITTED] 34779.087
    
    [GRAPHIC] [TIFF OMITTED] 34779.088
    
    [GRAPHIC] [TIFF OMITTED] 34779.089
    
    [GRAPHIC] [TIFF OMITTED] 34779.090
    
    [GRAPHIC] [TIFF OMITTED] 34779.091
    
    [GRAPHIC] [TIFF OMITTED] 34779.092
    
    [GRAPHIC] [TIFF OMITTED] 34779.093
    
    [GRAPHIC] [TIFF OMITTED] 34779.094
    
    [GRAPHIC] [TIFF OMITTED] 34779.095
    
    [GRAPHIC] [TIFF OMITTED] 34779.096
    
    [GRAPHIC] [TIFF OMITTED] 34779.097
    
    [GRAPHIC] [TIFF OMITTED] 34779.098
    
    [GRAPHIC] [TIFF OMITTED] 34779.099
    
    [GRAPHIC] [TIFF OMITTED] 34779.100
    
    [GRAPHIC] [TIFF OMITTED] 34779.101
    
    [GRAPHIC] [TIFF OMITTED] 34779.102
    
    [GRAPHIC] [TIFF OMITTED] 34779.103
    
    [GRAPHIC] [TIFF OMITTED] 34779.104
    
    [GRAPHIC] [TIFF OMITTED] 34779.105
    
    [GRAPHIC] [TIFF OMITTED] 34779.106
    
    [GRAPHIC] [TIFF OMITTED] 34779.107
    
    [GRAPHIC] [TIFF OMITTED] 34779.108
    
    [GRAPHIC] [TIFF OMITTED] 34779.109
    
    [GRAPHIC] [TIFF OMITTED] 34779.110
    
    [GRAPHIC] [TIFF OMITTED] 34779.111
    
    [GRAPHIC] [TIFF OMITTED] 34779.112
    
    [GRAPHIC] [TIFF OMITTED] 34779.113
    
    [GRAPHIC] [TIFF OMITTED] 34779.114
    
    [GRAPHIC] [TIFF OMITTED] 34779.115
    
    [GRAPHIC] [TIFF OMITTED] 34779.116
    
    [GRAPHIC] [TIFF OMITTED] 34779.117
    
    [GRAPHIC] [TIFF OMITTED] 34779.118
    
    [GRAPHIC] [TIFF OMITTED] 34779.119
    
    [GRAPHIC] [TIFF OMITTED] 34779.120
    
    [GRAPHIC] [TIFF OMITTED] 34779.121
    
    [GRAPHIC] [TIFF OMITTED] 34779.122
    
    [GRAPHIC] [TIFF OMITTED] 34779.123
    
    [GRAPHIC] [TIFF OMITTED] 34779.124
    
    [GRAPHIC] [TIFF OMITTED] 34779.125
    
    [GRAPHIC] [TIFF OMITTED] 34779.126
    
    [GRAPHIC] [TIFF OMITTED] 34779.127
    
    [GRAPHIC] [TIFF OMITTED] 34779.128
    
    [GRAPHIC] [TIFF OMITTED] 34779.129
    
    [GRAPHIC] [TIFF OMITTED] 34779.130
    
    [GRAPHIC] [TIFF OMITTED] 34779.131
    
    [GRAPHIC] [TIFF OMITTED] 34779.132
    
    [GRAPHIC] [TIFF OMITTED] 34779.133
    
    [GRAPHIC] [TIFF OMITTED] 34779.134
    
    [GRAPHIC] [TIFF OMITTED] 34779.135
    
    [GRAPHIC] [TIFF OMITTED] 34779.136
    
    [GRAPHIC] [TIFF OMITTED] 34779.137
    
    [GRAPHIC] [TIFF OMITTED] 34779.138
    
    [GRAPHIC] [TIFF OMITTED] 34779.139
    
    [GRAPHIC] [TIFF OMITTED] 34779.140
    
    [GRAPHIC] [TIFF OMITTED] 34779.141
    
    [GRAPHIC] [TIFF OMITTED] 34779.142
    
    [GRAPHIC] [TIFF OMITTED] 34779.143
    
    [GRAPHIC] [TIFF OMITTED] 34779.144
    
    [GRAPHIC] [TIFF OMITTED] 34779.145
    
    [GRAPHIC] [TIFF OMITTED] 34779.146
    
    [GRAPHIC] [TIFF OMITTED] 34779.147
    
    [GRAPHIC] [TIFF OMITTED] 34779.148
    
    [GRAPHIC] [TIFF OMITTED] 34779.149
    
    [GRAPHIC] [TIFF OMITTED] 34779.150
    
    [GRAPHIC] [TIFF OMITTED] 34779.151
    
    [GRAPHIC] [TIFF OMITTED] 34779.152
    
    [GRAPHIC] [TIFF OMITTED] 34779.153
    
    [GRAPHIC] [TIFF OMITTED] 34779.154
    
    [GRAPHIC] [TIFF OMITTED] 34779.155
    
    [GRAPHIC] [TIFF OMITTED] 34779.156
    
    [GRAPHIC] [TIFF OMITTED] 34779.157
    
    [GRAPHIC] [TIFF OMITTED] 34779.158
    
    [GRAPHIC] [TIFF OMITTED] 34779.159
    
    [GRAPHIC] [TIFF OMITTED] 34779.160
    
    [GRAPHIC] [TIFF OMITTED] 34779.161
    
    [GRAPHIC] [TIFF OMITTED] 34779.162
    
    [GRAPHIC] [TIFF OMITTED] 34779.163
    
    [GRAPHIC] [TIFF OMITTED] 34779.164
    
    [GRAPHIC] [TIFF OMITTED] 34779.165
    
    [GRAPHIC] [TIFF OMITTED] 34779.166
    
    [GRAPHIC] [TIFF OMITTED] 34779.167
    
    [GRAPHIC] [TIFF OMITTED] 34779.168
    
    [GRAPHIC] [TIFF OMITTED] 34779.169
    
    [GRAPHIC] [TIFF OMITTED] 34779.170
    
    [GRAPHIC] [TIFF OMITTED] 34779.171
    
    [GRAPHIC] [TIFF OMITTED] 34779.172
    
    [GRAPHIC] [TIFF OMITTED] 34779.173
    
    [GRAPHIC] [TIFF OMITTED] 34779.174
    
    [GRAPHIC] [TIFF OMITTED] 34779.175
    
    [GRAPHIC] [TIFF OMITTED] 34779.176
    
    [GRAPHIC] [TIFF OMITTED] 34779.177
    
    [GRAPHIC] [TIFF OMITTED] 34779.178
    
    [GRAPHIC] [TIFF OMITTED] 34779.179
    
    [GRAPHIC] [TIFF OMITTED] 34779.180
    
    [GRAPHIC] [TIFF OMITTED] 34779.181
    
    [GRAPHIC] [TIFF OMITTED] 34779.182
    
    [GRAPHIC] [TIFF OMITTED] 34779.183
    
    [GRAPHIC] [TIFF OMITTED] 34779.184
    
    [GRAPHIC] [TIFF OMITTED] 34779.185
    
    [GRAPHIC] [TIFF OMITTED] 34779.186
    
    [GRAPHIC] [TIFF OMITTED] 34779.187
    
    [GRAPHIC] [TIFF OMITTED] 34779.188
    
    [GRAPHIC] [TIFF OMITTED] 34779.189
    
    [GRAPHIC] [TIFF OMITTED] 34779.190
    
    [GRAPHIC] [TIFF OMITTED] 34779.191
    
    [GRAPHIC] [TIFF OMITTED] 34779.192
    
    [GRAPHIC] [TIFF OMITTED] 34779.193
    
    [GRAPHIC] [TIFF OMITTED] 34779.194
    
    [GRAPHIC] [TIFF OMITTED] 34779.195
    
    [GRAPHIC] [TIFF OMITTED] 34779.196
    
    [GRAPHIC] [TIFF OMITTED] 34779.197
    
    [GRAPHIC] [TIFF OMITTED] 34779.198
    
    [GRAPHIC] [TIFF OMITTED] 34779.199
    
    [GRAPHIC] [TIFF OMITTED] 34779.200
    
    [GRAPHIC] [TIFF OMITTED] 34779.201
    
    [GRAPHIC] [TIFF OMITTED] 34779.202
    
    [GRAPHIC] [TIFF OMITTED] 34779.203
    
    [GRAPHIC] [TIFF OMITTED] 34779.204
    
    [GRAPHIC] [TIFF OMITTED] 34779.205
    
    [GRAPHIC] [TIFF OMITTED] 34779.206
    
    [GRAPHIC] [TIFF OMITTED] 34779.207
    
    [GRAPHIC] [TIFF OMITTED] 34779.208
    
    [GRAPHIC] [TIFF OMITTED] 34779.209
    
    [GRAPHIC] [TIFF OMITTED] 34779.210
    
    [GRAPHIC] [TIFF OMITTED] 34779.211
    
    [GRAPHIC] [TIFF OMITTED] 34779.212
    
    [GRAPHIC] [TIFF OMITTED] 34779.213
    
    [GRAPHIC] [TIFF OMITTED] 34779.214
    
    [GRAPHIC] [TIFF OMITTED] 34779.215
    
    [GRAPHIC] [TIFF OMITTED] 34779.216
    
    [GRAPHIC] [TIFF OMITTED] 34779.217
    
    [GRAPHIC] [TIFF OMITTED] 34779.218
    
    [GRAPHIC] [TIFF OMITTED] 34779.219
    
    [GRAPHIC] [TIFF OMITTED] 34779.220
    
    [GRAPHIC] [TIFF OMITTED] 34779.221
    
    [GRAPHIC] [TIFF OMITTED] 34779.222
    
    [GRAPHIC] [TIFF OMITTED] 34779.223
    
    [GRAPHIC] [TIFF OMITTED] 34779.224
    
    [GRAPHIC] [TIFF OMITTED] 34779.225
    
    [GRAPHIC] [TIFF OMITTED] 34779.226
    
    [GRAPHIC] [TIFF OMITTED] 34779.227
    
    [GRAPHIC] [TIFF OMITTED] 34779.228
    
    [GRAPHIC] [TIFF OMITTED] 34779.229
    
    [GRAPHIC] [TIFF OMITTED] 34779.230
    
    [GRAPHIC] [TIFF OMITTED] 34779.231
    
    [GRAPHIC] [TIFF OMITTED] 34779.232
    
    [GRAPHIC] [TIFF OMITTED] 34779.233
    
    [GRAPHIC] [TIFF OMITTED] 34779.234
    
    [GRAPHIC] [TIFF OMITTED] 34779.235
    
    [GRAPHIC] [TIFF OMITTED] 34779.236
    
    [GRAPHIC] [TIFF OMITTED] 34779.237
    
    [GRAPHIC] [TIFF OMITTED] 34779.238
    
    [GRAPHIC] [TIFF OMITTED] 34779.239
    
    [GRAPHIC] [TIFF OMITTED] 34779.240
    
    [GRAPHIC] [TIFF OMITTED] 34779.241
    
    [GRAPHIC] [TIFF OMITTED] 34779.242
    
    [GRAPHIC] [TIFF OMITTED] 34779.243
    
    [GRAPHIC] [TIFF OMITTED] 34779.244
    
    [GRAPHIC] [TIFF OMITTED] 34779.245
    
    [GRAPHIC] [TIFF OMITTED] 34779.246
    
    [GRAPHIC] [TIFF OMITTED] 34779.247
    
    [GRAPHIC] [TIFF OMITTED] 34779.248
    
    [GRAPHIC] [TIFF OMITTED] 34779.249
    
    [GRAPHIC] [TIFF OMITTED] 34779.250
    
    [GRAPHIC] [TIFF OMITTED] 34779.251
    
    [GRAPHIC] [TIFF OMITTED] 34779.252
    
    [GRAPHIC] [TIFF OMITTED] 34779.253
    
    [GRAPHIC] [TIFF OMITTED] 34779.254
    
    [GRAPHIC] [TIFF OMITTED] 34779.255
    
    [GRAPHIC] [TIFF OMITTED] 34779.256
    
    [GRAPHIC] [TIFF OMITTED] 34779.257
    
    [GRAPHIC] [TIFF OMITTED] 34779.258
    
    [GRAPHIC] [TIFF OMITTED] 34779.259
    
    [GRAPHIC] [TIFF OMITTED] 34779.260
    
    [GRAPHIC] [TIFF OMITTED] 34779.261
    
    [GRAPHIC] [TIFF OMITTED] 34779.262
    
    [GRAPHIC] [TIFF OMITTED] 34779.263
    
    [GRAPHIC] [TIFF OMITTED] 34779.264
    
    [GRAPHIC] [TIFF OMITTED] 34779.265
    
    [GRAPHIC] [TIFF OMITTED] 34779.266
    
    [GRAPHIC] [TIFF OMITTED] 34779.267
    
    [GRAPHIC] [TIFF OMITTED] 34779.268
    
    [GRAPHIC] [TIFF OMITTED] 34779.269
    
    [GRAPHIC] [TIFF OMITTED] 34779.270
    
    [GRAPHIC] [TIFF OMITTED] 34779.271
    
    [GRAPHIC] [TIFF OMITTED] 34779.272
    
    [GRAPHIC] [TIFF OMITTED] 34779.273
    
    [GRAPHIC] [TIFF OMITTED] 34779.274
    
    [GRAPHIC] [TIFF OMITTED] 34779.275
    
    [GRAPHIC] [TIFF OMITTED] 34779.276
    
    [GRAPHIC] [TIFF OMITTED] 34779.277
    
    [GRAPHIC] [TIFF OMITTED] 34779.278
    
    [GRAPHIC] [TIFF OMITTED] 34779.279
    
    [GRAPHIC] [TIFF OMITTED] 34779.280
    
    [GRAPHIC] [TIFF OMITTED] 34779.281
    
    [GRAPHIC] [TIFF OMITTED] 34779.282
    
                                    

</pre></body></html>
